<html>
<title> - THE INCREASING AMERICAN JOBS THROUGH GREATER EXPORTS TO AFRICA ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   THE INCREASING AMERICAN JOBS THROUGH GREATER EXPORTS TO AFRICA ACT

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2012

                               __________

                           Serial No. 112-139

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
73-814                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California<greek-l>
TOM MARINO, Pennsylvania             DONALD M. PAYNE, New Jersey--
ANN MARIE BUERKLE, New York              deceased 3/6/12 deg.
ROBERT TURNER, New York              RUSS CARNAHAN, Missouri


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary of State, 
  Bureau of African Affairs, U.S. Department of State............     7
The Honorable Florizelle Liser, Assistant United States Trade 
  Representative for Africa, Office of the United States Trade 
  Representative.................................................    22
Mr. Isaiah Washington, actor, president, Gondobay Manga 
  Foundation (Sierra Leone)......................................    46
Mr. Scott Eisner, Executive Director, Africa Business Initiative, 
  United States Chamber of Commerce..............................    53
Mr. Reginald Maynor, director of international department, Luster 
  Products Incorporated..........................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................    11
The Honorable Florizelle Liser: Prepared statement...............    29
Mr. Isaiah Washington: Prepared statement........................    49
Mr. Scott Eisner: Prepared statement.............................    56
Mr. Reginald Maynor: Prepared statement..........................    64

                                APPENDIX

Hearing notice...................................................    86
Hearing minutes..................................................    87
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    88


   THE INCREASING AMERICAN JOBS THROUGH GREATER EXPORTS TO AFRICA ACT

                              ----------                              


                        TUESDAY, APRIL 17, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon, everybody. Today's hearing will examine U.S. policy 
toward American exports to Africa as part of U.S.-Africa trade. 
The original African Growth and Opportunity Act, or AGOA, was 
intended to be mutually beneficial for both African and 
American entrepreneurs, but the focus of the three 
administrations since its passage in 2000 has been on 
increasing African exports to the United States and a resultant 
job growth on the African continent.
    This policy, however, has neglected the job growth here in 
the United States that could be created through increasing U.S. 
exports to Africa. The purpose of the Increasing American Jobs 
Through Greater Exports to Africa Act of 2012, or H.R. 4221, 
which I've introduced along with Congressman Bobby Rush and my 
good friend and colleague, Ms. Bass, our ranking member, is to 
address the important components of U.S.-Africa trade by 
increasing U.S. exports to Africa by 200 percent over the next 
decade.
    The bill does not replace AGOA, it complements it by 
providing for a rebalancing that makes it beneficial to 
Americans as well as Africans. Senators Dick Durbin and John 
Boozman have introduced an identical version of the bill in the 
Senate--S. 2215.
    The bill intends to achieve its ambitious but achievable 
goal by taking several steps, including the creation of a U.S.-
Africa trade coordinator to ensure that all U.S. agencies 
involved in trade work in concert with one another.
    This legislation also calls for not less than 25 percent of 
U.S. trade financing to be devoted to facilitating U.S.-Africa 
trade. Furthermore, it encourages the descendants of Africa in 
this country, who largely operate small and medium size 
businesses, to play a greater role in trade with countries in 
Africa. Small and medium enterprises in Africa and the U.S. 
have not benefited from AGOA to the extent that they could have 
or should have, and the bill addresses this deficit.
    U.S. companies can benefit from an expanding African market 
of businesses and consumers, and increased American production 
will create new, sustainable jobs. Some have expressed concern 
that such an expansion of U.S. exports to Africa could flood 
African markets and damage their economies. However, many of 
these U.S. exports, such as in the agricultural sector, will 
enable African producers to become more efficient and 
profitable, and create jobs for their workers as well.
    In trade, the best situation is one of observing the 
principle of comparative advantage: Countries sell what they 
make most efficiently and buy what another country makes most 
efficiently. In this way, both buyer and seller countries 
benefit from trade by meeting each other's needs. According to 
the U.S. International Trade Administration, the United States 
is the world's largest importer of sub-Saharan African goods, 
receiving 20.2 percent of the region's total global exports.
    On the other hand, during the height of the global 
recession in 2008 to 2009, our exports to sub-Saharan Africa 
plummeted by 45 percent, from $78.3 billion to $42.8 billion. 
At the end of 2011, the United States sold nearly $20.3 billion 
worth of goods to sub-Saharan Africa while purchasing more than 
$74 billion worth of goods. Consequently, we had a trade 
deficit with the nations of sub-Saharan Africa last year of 
nearly $54 billion.
    The African Development Bank estimates that one out of 
three Africans is considered to be in the middle class. That is 
314 million Africans who have escaped poverty and now can buy 
consumer goods, including those from the United States. In 
order to reduce our trade deficit with the nations of Africa, 
there is room to engage in trade that increases economic 
opportunity for Africans and Americans alike. We just haven't 
taken advantage of the opportunities that exist.
    The United States has, over the last decade, taken many 
steps to enhance U.S.-Africa trade. African governments have 
taken steps to encourage transatlantic trade as well. Still, 
both sides can and must do better. Exports will help the 
economy grow, because they typically boost factory production 
which can fuel more hiring and lead to greater consumer 
spending. Fewer imports subtract less from growth, largely 
because consumers are spending less on overseas goods and 
services. H.R. 4221 will contribute to job growth in the United 
States by facilitating increased sales to the emerging markets 
of Africa.
    The rest of the world understands how valuable the nations 
of Africa have become as economic markets. Last month this 
subcommittee held hearings on the role of China in Africa that 
not only pointed out China's design on selling their goods to 
African countries, but also illustrated the economic interest 
in Africa shown by nations as farflung as Brazil, Turkey and 
South Korea. We, in the United States, must join in the more 
equal two-way trade the rest of the world envisions for their 
commerce with Africa.
    I want to now turn to my good friend and colleague, Ms. 
Bass, and I do want to thank all of our witnesses for being 
here. We have two very, very distinguished panels, and I 
especially want to single out Isaiah Washington, and thank him 
for joining us today, for coming into Washington to be part of 
panel II, to talk about his expertise especially as it relates 
to Sierra Leone. We are very grateful to have you here, Mr. 
Washington.
    Ms. Bass?
    Ms. Bass. Once again thank you, Mr. Chairman, for convening 
this hearing. Let me welcome today's guests who will be 
testifying, all of whom have distinguished records and 
substantial experience regarding U.S. trade in Africa.
    I want to extend my gratitude to Chairman Smith and 
Representative Rush for their leadership on H.R. 4221, the 
Increasing American Jobs Through Greater Exports to Africa Act. 
I am pleased to join my colleagues as a cosponsor of this 
legislation, the bill will assist in increasing U.S. exports to 
Africa by 200 percent within the next 10 years, and it is my 
hope that we will achieve if not exceed this target. I also 
look forward to working with our counterparts in the Senate, 
Senator Durbin and Senator Boozman, who have as was stated have 
introduced identical legislation.
    The objective of today's hearing is to consider how the 
U.S. Government can increase trade and investment on the 
African continent. With signs of strong economic growth in sub-
Saharan Africa, the window of opportunity for broader U.S. 
trade and business engagement has never been more timely. 
Foreign nations including China, Canada, France, the UK, have 
more comprehensive trade promoting programs directed at Africa 
than we do. These programs give companies increased advantage 
over American companies. The U.S. can and must do more to 
ensure that U.S. businesses have similar opportunities and have 
the tools needed to compete.
    While quite variable by nation, GDP growth in many sub-
Saharan African countries has shown real strength and 
resilience over the last decade. Many African countries have 
GDP growth rates that exceed current U.S. rates. For example, 
Sierra Leone has shown an average GDP rate of 9.7, Ethiopia 8.5 
and Rwanda 7.6.
    In October 2011, report on economic growth in sub-Saharan 
Africa, the IMF, the International Monetary Fund, showed a 
positive outlook for continued growth on the African continent. 
The report stated, and I quote,

        ``This year looks set to be another encouraging one for 
        most sub-Saharan African economies. Reflecting mainly 
        strong domestic demand but also elevated commodity 
        prices, the region's economy is set to expand by 5.25 
        percent in 2011. For 2012, our baseline projection is 
        for growth to be higher at 5.75 percent.''

    While the U.S. economy continues to pick up real strength, 
growth in much of the sub-Saharan continent continues to 
outpace growth here at home. What is clear is that the United 
States must review its policies and look for new opportunities 
to diversify and expand. One way to do this is by increasing 
our low level of trade with Africa both through public and 
private sector engagement. When passed into law, I firmly 
believe that the conditions will exist to promote win-win 
environments for both African nations and the United States.
    Over the years, this committee has discussed the trade and 
investment opportunities supported by the African Growth and 
Opportunity Act signed into law in 2000. AGOA serves as a 
primary vehicle for advancing U.S. trade and investment with 
Africa. The purpose of AGOA has been to promote economic and 
political development by opening access to investment and trade 
markets in the United States for African nations. AGOA has been 
at the center of American economic policy with respect to the 
continent.
    AGOA, however, is a nonreciprocal trade preference program. 
As such, while U.S. firms that export to the United States from 
Africa may benefit from the provision under AGOA, in most 
instances U.S. exports to Africa do not automatically enjoy the 
same benefits in reverse.
    Members of Congress will soon review a special rule for 
developing countries which provide additional preferences in 
duty-free quota access for apparel. As we consider extending 
the special rule, I look forward to ways and mechanisms that 
strengthen AGOA in the future. And one of the things that I 
want to propose to our chair is that we really begin to look 
specifically at what companies are involved in AGOA, how it has 
benefited the U.S., how it has benefited the continent.
    The Congressional Research Service indicates that in 2011, 
the U.S. imported nearly $93 billion in goods from Africa while 
exporting just under $32 billion. Nigeria, Algeria, and Angola 
were the leading exporters to the U.S., and oil products 
totaling nearly $76 billion account for the overwhelming 
majority of U.S. imports through AGOA.
    In sum, our trade balance is highly uneven. Most of our 
trade is in the form of U.S. imports, and the vast bulk of 
benefits under AGOA accrue mostly to natural resource commodity 
producers. Today's hearing in H.R. 4221 aims to address this 
imbalance and offer new mechanisms to reduce import-export 
differentials.
    I am pleased that Mr. Maynor, who as an African-American 
businessman based in Chicago, will share with this committee 
his company's 30-plus year history of conducting business 
throughout the continent. Like other small and medium sized 
businesses, I hope that Mr. Maynor's testimony offers insight 
as my colleagues and I work to develop effective policies that 
create greater trade and investment opportunities.
    Thank you, and I look forward to the remarks of today's 
witnesses.
    Mr. Smith. Ms. Bass, thank you very much.
    And Mr. Rush?
    Mr. Rush. I want to thank the chairman of this 
subcommittee, Congressman Chris Smith, and also ranking member 
Karen Bass and all the other subcommittee members. I want to 
sincerely thank you for allowing me to participate in this 
hearing on the Increasing American Jobs Through Greater Exports 
to Africa Act of 2012.
    I must say that after four terms of trying to get a waiver 
to be on this subcommittee, to be on this committee and then 
denied for four terms, I have finally arrived in some sense. I 
am proud to join Chairman Smith as the coauthor of a bill to 
develop a comprehensive strategy to create American jobs by 
increasing exports of U.S. goods and services to Africa by at 
least 200 percent in real dollar value over the next 10 years.
    And before I continue I must take time to say how honored I 
am to be in the presence of the honorable Ms. Liser and the 
Honorable Ambassador Johnnie Carson, who is a Chicagoan and 
someone who grew up in my district on the south side of 
Chicago. And I also want to welcome Mr. Maynor, who is an 
executive with Luster Products Company, which is also located 
in the city of Chicago.
    And I must say that to my friend, Isaiah Washington, who 
has been such a yeoman in this effort in these times and for 
Africa and for African-Americans, it is such a delight to see 
you here still on the case of fighting for the progress of 
Africa, African-Americans and also Americans in general. And I 
am certainly glad to be in your presence.
    Chairman Smith, my hat is off to you. I commend you, I 
commend your staff, for your leadership on this issue 
especially on the bipartisan manner with which we worked 
together during this process of drafting this legislation. This 
is the way that the Congress should work, the way that America 
wants its Congress to work.
    Again I must welcome Ambassador Carson and Ms. Liser, and 
the way that we are discussing today this bill is the right 
bill for these challenging economic times. The U.S. has talked 
far too long about Africa as the next trade and investment 
frontier. Well, the next is now. The future of Africa is now 
and it is time now to act on our promise. We now have a 
tremendous opportunity to build mutually beneficial policies 
that create jobs and economic growth on both continents.
    For a long time, Africa has been portrayed only as a 
continent riddled with war, dictatorship, poverty, disease and 
debt and every kind of dysfunction. Yet this true, real story 
of this country by country reawakening and revival and the 
story of many great successes remain untold stories. Seven out 
of ten of the fastest growing economies are today in Africa. 
Africa has an expanding middle class hungry for American 
products and its services. It is also in need of investment in 
its rapidly expanding infrastructure.
    In all my travels to African countries I always hear from 
African leaders and African consumers about their preference 
for American companies and products because of the quality of 
our products, our reliable and innovative technology and our 
labor environmental standards. But we are not reacting. We are 
standing flat-footed as China and India and Brazil and others 
are being fleet-footed.
    In my conversation with African leaders, they say well, if 
the U.S. doesn't come then we are forced to take the Chinese 
money to help develop our economy. But we don't like it, 
because the Chinese when they come and bring their dollars they 
also bring their manpower, and we don't want to exchange a 
European colonialism for Chinese colonialism. But we can't wait 
on America. America must act and act now. The African people 
can't resist flexible or cheap Chinese financing.
    As one African ambassador told me at one time, if you 
cannot have what you love then you end up loving what you have. 
And they have China and so they have to love China. It is now 
time for America to act.
    This legislation will help to change those misguided 
perceptions and foster a greater understanding among U.S. 
businesses and financial communities about the opportunities 
that exist in Africa. The U.S. investment opportunities in 
Africa outside of the energy and mineral sectors hold a great 
potential to increase jobs in Africa, boost income earning 
power and help diversify African economies, thus making Africa 
stronger as a market for U.S. goods and services.
    Poverty and hunger are still widespread problems, but 
Africa's growing middle class is creating businesses and 
investment opportunities that are among the best in the world. 
With the right trade policy in place we can unlock the 
potential of a thriving private sector and lift millions out of 
poverty.
    The tools available to U.S. companies to competitively 
compete in Africa are scattered, difficult to access and not 
effectively coordinated. Competition for jobs is also real. We 
need to think more strategically and be more innovative as to 
how we can best support our investments in Africa. This bill 
has been introduced for that purpose. Among other things, the 
bill will create a special White House Africa Strategy 
Coordinator to ensure government agencies are maximizing 
resources to help U.S. companies expand into African market.
    The bill also includes language from H.R. 656, the African 
Investment and Diaspora Act of 2011 that I introduced last 
Congress, positioning the U.S.-African diaspora to spur African 
economic growth. When I introduced AIDA in the social media, 
our Facebook group gained close to 10,000 members in less than 
a week. More than a hundred African immigrant groups signed a 
petition in support of this initiative. I have not met one 
single African who did not express his or her desire to 
contribute to the development of his or her country of origin 
and to represent an American firm.
    This bill will help turn brain drain into brain gain, 
challenging a new paradigm for strengthening U.S.-Africa 
relations in the 21st century. It also marks the first step 
toward unleashing Africa's vast potential through win-win trade 
and investment opportunities mirroring the spirit of the common 
history and destiny shared between the U.S. and Africa. This 
bill will help reduce non-trade barriers, encourage regional 
integration of African countries, increase U.S. exports and 
positively affect U.S. trade export and labor initiative.
    Furthermore, passage of this legislation will ensure that 
the U.S. policy is contributing meaningfully to the positive 
transformation of Africa, enabling it to progress toward 
forward integration into the 21st century world economy not as 
a supplier of raw materials and resources, but as a full 
participant in the international supply and distribution 
chains. The future of Africa, the future of U.S. economies are 
intertwined and this future is now before us. We must act now 
to ensure that future.
    And I am looking forward to hearing the testimony from both 
panels. Thank you, and I yield back.
    Mr. Smith. Mr. Rush, thank you very much, and thank you for 
your kind words. It has been great to work with you and your 
staff, and of course with my ranking member, our ranking 
member, Ms. Bass.
    I would like to now introduce without objection, the bios 
of our very distinguished witnesses.
    Ambassador Johnnie Carson has been a frequent witness 
before this subcommittee. He currently serves as the Assistant 
Secretary of State for African Affairs, a position he has held 
since May 2009. Ambassador Carson has had a long and 
distinguished career in public service including 37 years in 
the Foreign Service, including serving as the U.S. Ambassador 
to Kenya, Uganda and Zimbabwe. Ambassador Carson has also 
served as the Staff Director of this subcommittee, and as a 
Peace Corps volunteer in Tanzania. Ambassador Carson is a 
recipient of numerous awards for his service from the 
Department.
    We will then hear from Ms. Florizelle Liser, currently the 
Assistant U.S. Trade Representative for Africa in the Office of 
the U.S. Trade Representative. She leads U.S. trade efforts and 
investment in sub-Saharan Africa, and oversees implementation 
of the African Growth and Opportunity Act. Ms. Liser was also a 
founding member of TransAfrica, and has applied these efforts 
to her continuous work to help the U.S. realize Africa's 
growing importance to us as a continent. Ms. Liser has 
extensive background in trade negotiations, in Africa, and has 
spent much of her career working on those issues.
    Ambassador Carson, please proceed.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY 
 OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Carson. Chairman Smith, Ranking Member Bass, 
Congressman Rush and other members of the committee, thank you 
very much for providing me with this opportunity to address 
this committee on an important and timely topic.
    Before I begin my testimony, I would like to say that this 
is the first time that I have addressed this committee since 
the tragic and unfortunate passing of Congressman Donald Payne. 
Congressman Payne was a leader on issues related to Africa. He 
was one of the pioneers of the African Growth and Opportunity 
Act, and was a strong friend of the continent and our 
relationship with Africa. If he were alive today he would be at 
this hearing pushing for the kinds of legislation toward Africa 
that we all believe in both in the executive branch and in the 
legislative branch.
    Let me begin my testimony. U.S. trade to and from Africa 
has grown significantly in the past 10 years. U.S. exports to 
sub-Saharan Africa tripled from just under $7 billion in 2001 
to over $21 billion in 2011. This threefold increase 
illustrates the impressive economic growth that many markets in 
Africa achieve by tackling tough economic reforms over the past 
decade. However, despite Africa's recent and very impressive 
economic growth, sub-Saharan Africa still accounts for less 
than 2 percent of global trade.
    It is my firm belief that Africa represents the next global 
economic frontier, and I am not alone in that assessment. The 
World Bank projects growth rates of between 5 and 6 percent for 
Africa over the next 2 years. These projections are higher than 
growth rates expected for Latin America, Central Asia and 
Europe. Africa is poised to grow even further, presenting 
significant opportunities for U.S. companies to both trade and 
invest in the continent.
    Nonetheless, there are still many barriers that stand in 
the way of companies hoping to do business in Africa. In many 
places corruption is common. The cost of finance including 
investment finance is still too high. Infrastructure is weak or 
nonexistent in some places. Regulatory systems are often 
insufficient, inconsistent, and inefficient. Because of these 
barriers many U.S. businesses see African markets as too risky.
    We are working closely with African governments across the 
continent to address these issues and to improve the local 
investment and business environment. The United States 
Government also plays a role in assisting American companies to 
get into African markets. We recognize that increasing two-way 
trade and enhancing investment helps to grow economies on both 
sides of the Atlantic, in Africa as well as in America.
    Our effort to increase our commercial engagement in Africa 
is a part of Secretary Clinton's global focus on economic 
statecraft. This State Department's economic statecraft agenda 
consists of harnessing the forces of global economies to 
advance our diplomatic agenda and putting the tools of our 
diplomacy to work to meet our economic goals. We are committed 
to using every opportunity available to advance not only our 
diplomatic and political priorities, but also our economic and 
commercial goals as well.
    The Bureau of African Affairs at the Department of State 
has instituted a number of programs that move beyond the 
traditional focus on development assistance and that place a 
special and higher interest on promoting a full range of 
commercial and trade activities.
    I recently organized and led a trade mission to Mozambique, 
Tanzania, Nigeria, and Ghana with 10 U.S. energy companies 
ready to do business. A lack of reasonably priced and reliable 
power remains one of the most significant constraints to 
economic growth throughout Africa. Governments across the 
continent are working to attract new trade and foreign 
investment that will sustain their rapid economic growth and 
build their middle class.
    The goal of this trade mission was to highlight 
opportunities for U.S. companies and to help address a glaring 
need for increased power in the infrastructure of Africa. By 
all accounts the mission was a success, and the Africa Bureau 
plans to lead similar trade missions in other sectors in the 
future. Our goal is to encourage other American companies to be 
a part of the growing economic dynamism of Africa.
    In February, Secretary Clinton hosted the first State 
Department-led Global Business Conference that included 
representatives from the American Chambers of Commerce and 
business organizations from around the world including Africa. 
And in March, we worked with the Foreign Commercial Service to 
host a commercial training program for economic officers posted 
in some 25 sub-Saharan African countries.
    I want to note the importance we place on working with the 
American Chambers of Commerce overseas. There are currently 
eight countries in sub-Saharan Africa with American Chambers of 
Commerce, and we hope that working with and through the U.S. 
Chamber of Commerce here in Washington to see that number grow.
    The African Growth and Opportunity Act (AGOA) currently is 
the centerpiece of our trade policy with sub-Saharan Africa. 
AGOA remains very relevant today for both Africa and the United 
States. Eligible African countries receive duty-free 
preferences for approximately 6,000 products to come into the 
United States market. However, AGOA gives the United States 
Government a platform to engage in an economic dialogue with 
our African partners.
    As a part of the most recent annual AGOA eligibility review 
we were able to engage in serious discussions with a variety of 
African nations about the need to improve their macroeconomic 
and trade policies. The annual AGOA forum also gives the United 
States Government an opportunity to communicate our trade and 
investment priorities to African trade ministers and 
businessmen.
    This year's forum will take place in Washington, DC, on 
June 14th and 15th, and will focus on how to improve Africa's 
infrastructure to facilitate and increase trade. The forum will 
also include civil society and private sector sessions. In 
addition, we look forward to building on the success of the 
African Women's Entrepreneur Program which was launched during 
the 2010 AGOA forum here in Washington. Approximately 40 
leading African women entrepreneurs will participate in 
meetings here and in Washington, DC, Ohio, and New York.
    The State Department, in collaboration with several U.S. 
Government agencies, will host the U.S.-Africa Business 
Conference in Cincinnati, Ohio, from June 21 to June 22, 
following the annual African Growth and Opportunity forum here 
in Washington. The United States-Africa Business Conference 
builds on the policy discussions that take place during the 
AGOA forums by providing an opportunity to showcase U.S. 
business expertise to potential African clients and to 
highlight trade and investment opportunities in Africa to U.S. 
exporters and investors.
    The United States-Africa Business Conference will include 
structured networking opportunities for African business 
leaders and government officials with American business leaders 
as well as state and local government officials and business 
leaders. Informational sessions on U.S. Government services 
from various government agencies and site visits to private 
companies and organizations will also feature prominently in 
this program. Echoing the theme of the AGOA forum, the event 
will focus broadly on infrastructure development including 
energy, transportation, water and sanitation.
    We expect the conference to attract a number of AGOA forum 
participants including African trade and energy ministers as 
well as relevant African business leaders and entrepreneurs. We 
also expect a large number of American private sector 
businessmen and women to participate.
    I remained very excited about the Cincinnati event 
following this year's AGOA forum. In 2010, we held a similar 
event in Kansas City, Missouri that was well worth the effort. 
By taking African government officials and private sector 
representatives outside the Beltway, we can facilitate a 
fruitful discussion that goes beyond simply discussing trade 
policy but leads to the establishment of business linkages and 
even the completion of business deals.
    I would like to end my comments on what I think is a very 
serious and pressing matter, the potential impact of a delayed 
renewal of the third country fabric provision of AGOA. Third 
country fabric has been one of the most successful components 
of the AGOA legislation and can be credited with creating tens 
of thousands of jobs in countries such as Lesotho, Kenya, 
Swaziland, and Mauritius. I have heard from representatives of 
a number of African countries that apparel orders are drying up 
due to the uncertainty surrounding the extension of this third 
country fiber provision.
    In Lesotho, which is the largest African apparel exporter 
to the United States, our Embassy reports that there are no 
U.S. orders for apparel after July and transactions are usually 
made 6 months in advance. Our Embassy in Nairobi, Kenya, 
recently reported similar news and estimated that some 40,000 
factory workers could very likely lose their jobs if the third 
country fabric provision is not extended.
    The apparel industries in these countries rely on the third 
country fabric provision. Without it there is a very real 
possibility that the investors in the apparel factories will 
pack up and move production to some other part of the world as 
we saw in Madagascar following its loss of AGOA eligibility in 
2009. This would cause enormous economic strife in countries 
that are strong partners of the United States and countries 
that are starting to show real economic and sustained economic 
growth.
    Chairman Smith, members of the committee, I want to again 
thank you for this opportunity to appear before you today. I 
will be happy to answer any questions you have. My full 
testimony has been submitted for the record.
    [The prepared statement of Ambassador Carson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Without objection, so ordered. We thank you for 
your testimony. We will take a short break. We have three votes 
on the floor and about 2\1/2\ minutes to get to the floor to 
make the first one. So we will stand in recess.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting. And I 
would like to invite Ms. Liser, if you could present your 
testimony. And again I want to apologize for that break. We did 
have three votes and they went longer than they should have. 
Thank you.

 STATEMENT OF THE HONORABLE FLORIZELLE LISER, ASSISTANT UNITED 
 STATES TRADE REPRESENTATIVE FOR AFRICA, OFFICE OF THE UNITED 
                  STATES TRADE REPRESENTATIVE

    Ms. Liser. Thank you, I should know that.
    Chairman Smith, Ranking Member Bass, I don't see 
Congressman Rush back yet, but we just wanted to thank you for 
the opportunity to speak with you today about the Obama 
administration's trade policy to increase U.S. exports to 
Africa. We welcome your interest in this timely topic and we 
agree with the stated premise of the proposed legislation that 
growth in U.S. exports to Africa would have a positive effect 
on the U.S. economy in terms of U.S. exports and supporting 
jobs as well as advancing economic growth on the African 
continent.
    Let me just say that my full testimony was submitted, and I 
am going to summarize as briefly as I can that testimony and 
add a few additional points that I would like to share.
    First of all, we all recognize that Africa is indeed a 
frontier market with the kinds of growth rates that we see, the 
reforms that have taken place in many of the sub-Saharan 
African countries, the doing-business reforms that they have 
made, the leadership that we are now seeing on the continent 
and advances in democracy, fewer conflicts, we recognize that 
Africa's time has come and that many countries recognize the 
importance of that as a market for their exports, and we 
certainly want to make sure that U.S. businesses also see the 
opportunities that are there.
    I heard someone say the other day at a meeting that if you 
are a U.S. company looking to grow, then you absolutely must 
have an Africa strategy. Without an Africa strategy, your 
chances of growing and taking advantage of that market with 
growing middle income persons, the youth bulge, discretionary 
income that is growing there, you would not be a wise company 
on this end if you did not take advantage of the U.S. market.
    Let me just say that we are pleased that both through 
legislation, like the legislation that has been introduced and 
the African Growth and Opportunity Act (AGOA) that there are in 
addition to legislation, a number of tools that we are using 
right now that we hope are advancing the U.S.-Africa trade and 
investment relationship. I think you all know that we have 
Trade and Investment Framework Agreements, TIFAs, with a number 
of individual countries and regional organizations in sub-
Saharan Africa.
    Our TIFAs are important tools for strengthening economic 
relations with key countries and regional organizations. They 
provide a formal mechanism to address bilateral trade issues 
and to help enhance trade and investment relations between the 
United States and key sub-Saharan African trade and investment 
partners.
    In addition, we have several Bilateral Investment Treaties 
with six sub-Saharan African countries, and we are currently in 
the process of negotiating a seventh BIT with Mauritius. We are 
also hoping to have discussions with Ghana on a Bilateral 
Investment Treaty. Investment is critical for Africa's 
development, and U.S. BITs help to protect U.S. investment and 
promote economic growth.
    In addition, we are using a number of tools in the 
interagency process such as the Trade Policy Staff Committee 
which manages the everyday responsibilities of coordinating 
U.S. trade and investment related policies, and ensuring that 
U.S. business interests are reflected in all of our trade 
negotiations and initiatives including those in Africa. We also 
have the Trade Promotion Coordinating Committee and the Export 
Promotion Cabinet, which has developed a national export 
strategy, and these together are implementing the National 
Export Initiative as part of the administration's efforts to 
double exports.
    Finally, I would be remiss if I did not mention the Trade 
Advisory Committee on Africa, which was established by Congress 
in AGOA legislation and consists of presidentially appointed 
individuals from the U.S. private sector, nongovernmental 
organizations, and academia, who provide advice to the U.S. 
Trade Representative and the administration specifically on key 
U.S.-Africa trade and investment issues.
    Finally, we are in the process of implementing the African 
Growth and Opportunity Act, and as part of that process among 
other things, as Ambassador Carson said, we annually review the 
48 countries in sub-Saharan Africa for compliance with AGOA 
eligibility criteria which includes their making progress on 
eliminating barriers to U.S. trade and investment.
    The administration is committed to building a strong 
partnership with Africa that reflects the continent's vital and 
growing role in international global trade and that is mutually 
beneficial. At the heart of our engagement with sub-Saharan 
Africa is of course AGOA. And for three administrations AGOA 
has defined our trade relationship with the continent and been 
responsible for expanding and diversifying African exports to 
the United States.
    I would like to reassure the members of this subcommittee 
though that our efforts to help spur growth and development in 
sub-Saharan Africa through programs like AGOA do not impede our 
drive for promoting U.S. exports to the continent. Not only has 
AGOA been good for Africa, but it has also been good for U.S. 
businesses. By providing incentives and support for African 
economic reforms, AGOA has helped to foster an improved 
business environment in many African countries that has 
attracted investment and enabled U.S. exports to the region to 
more than triple since 2001.
    Sub-Saharan Africa presents a wide range of business 
opportunities for U.S. businesses as many of the fastest 
growing economies in the world with rapidly growing middle 
class consumers are on the continent. The continent has enjoyed 
significant economic growth in the last few years, and returns 
on investment in Africa rarely dip below 10 percent, 
representing one of the highest rates of return in the world. 
AGOA has also helped increase the demand for U.S. products in 
the region by helping to promote economic and political reforms 
and to create business-friendly environments.
    As African businesses seek to take advantage of trade 
opportunities under AGOA, they are seeking U.S. inputs, 
expertise and joint venture partnerships. U.S. merchandise 
exports to sub-Saharan Africa continue to rise, growing by over 
23 percent in 2011 from the previous year with notable gains in 
agricultural goods, machinery and transportation equipment. 
These exports support thousands of U.S. jobs and help African 
countries to modernize their economies. For instance, last year 
alone the United States made over $1.5 billion in aircraft 
sales to African countries like Ethiopia, Angola, South Africa 
and Rwanda.
    Africa's growing middle class is increasingly demanding 
high quality U.S. products, ranging from motor vehicles where 
U.S. exports to sub-Saharan Africa increased last year by over 
40 percent to $3.5 billion, to poultry products where U.S. 
exports increased by nearly 50 percent last year to nearly $400 
million.
    Let me share with you a chart that provides information on 
U.S. exports to Africa, which I think you will find useful.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Liser. I would be remiss if I did not also add my voice 
to Ambassador Carson's and many others in the administration 
and amongst the African diplomatic corps and many in the U.S. 
business community regarding the extension of third country 
fabric provisions under AGOA. As an urgent, immediate-term 
priority, we hope to work closely with Congress to renew AGOA's 
third country fabric provisions which expire in September 2012.
    AGOA's performance, effectiveness and success are closely 
tied to the third country fabric provisions. These provisions 
are crucial to the continued survival of Africa's textile and 
apparel industry. Failure to extend these provisions is already 
affecting the competitiveness of Africa's apparel industry 
because global sourcing decisions for apparel are typically 
made up to 9 months in advance, imminently threatening 
significant job losses and factory closures throughout Africa 
in the coming months.
    AGOA's third country fabric provisions are also important 
for the United States, because they provide American retailers 
with an incentive to diversify their supply chains away from 
other foreign textile sources and provide low cost sourcing 
options for our apparel retailers and U.S. consumers.
    We look forward to working with you to promote U.S. exports 
to Africa and ensure that our trade policy continues to support 
jobs and export opportunities for America. I wanted to end by 
sharing, and I think you have it, a picture, which I think says 
far better than words what is happening with U.S. exports to 
Africa and which we would like to see a lot more of.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Liser. It is a picture of three GE produced rail cars 
that were in the process of being exported to Liberia for a 
steel and mining initiative. And those GE locomotives and the 
70 wagons are moving 4 million tons of iron ore that is going 
to be mined and shipped from Liberia each year to its partners 
around the world. In addition to the GE locomotives, there were 
also other companies like Caterpillar who supplied various 
components and are rehabilitating the 200 ore wagons. And we 
believe that a number of U.S. companies and businesses and 
workers were definitely benefited by that transaction.
    Let me end by saying that we would like to see a lot more 
of those kinds of initiatives take place, and we look forward 
to working with you to ensure that that happens. Thank you.
    [The prepared statement of Ms. Liser follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you, Ms. Liser, so very much for your 
testimony. Let me just ask Ambassador Carson, with the AGOA 
forum, which you talked about in your testimony, about to take 
place on June 14th and 15th, what is going to be the State 
Department's main theme in engaging African governments at that 
ministerial?
    Ambassador Carson. Thank you very much. We are going to 
focus on energy and infrastructure and continue to encourage 
economic reforms that will attract greater American business 
and American interest to the African continent.
    Mr. Smith. Let me ask you, Ms. Liser, how have the Trade 
and Investment Framework Agreements that you just mentioned in 
your testimony helped open up markets for American goods, and 
what have been the deficiencies that need to be rectified?
    Ms. Liser. Well, we think that one of the processes that 
has happened under our TIFAs is the opportunity to bring 
together on both sides as well as, the government workers as 
well as the private sectors to talk about the opportunities for 
enhancing trade and investment between ourselves and the TIFA 
partner. And one of the things we have been able to do in our 
TIFA discussions is to raise some of the concerns that our 
businesses have. Sometimes it is the perfect opportunity to 
say, okay, you have this barrier, you have this import ban, you 
have these rules on getting licenses, et cetera that are 
standing in the way. And we have found that through the 
dialogue we have been able to get these governments to address 
some of those barriers that are preventing U.S. businesses from 
being able to operate effectively in those countries.
    In terms of where there is a need for improvement under the 
TIFAs, we tell the countries, our country partners, all the 
time that the TIFA can only be as good as the work that they 
put in on their end and we put in on our end. And so one of the 
things that we try to get them to do is to not wait until they 
sit down with us after 18 months to, over the course of 2 days 
to start addressing some of the issues that have been raised.
    To the extent that we have a number of our TIFA partners 
who do well at addressing the issues in between the meetings 
like Mauritius, like Ghana, like Rwanda, we find that we have 
been able to enhance our trade investment relationship with 
them very well under the TIFAs.
    Mr. Smith. Let me just--a little background. Some of you 
may know this, but if you don't know I authored the Trafficking 
Victims Protection Act of 2000, which created a coordinated 
strategy for combating modern day slavery. In like manner also 
in 2000, I wrote what became the Combating Autism Act. And 
again the key there was that the NIH has a very, very well 
focused strategy on combating autism. I remember I was the 
sponsor of the legislation that just got signed in the fall to 
reauthorize the Combating Autism Act for the next 3 years.
    My point is, the key to our legislation that the three of 
us have sponsored is creating a strategy--and I know you have 
strategies, I know there are many, you are doing an outstanding 
job on trying to increase trade with Africa. But we have laid 
out eight different areas where there would be a more, a 
coordinated blueprint for action trying to get everybody on the 
same page, avoid duplication but also ensuring that we also put 
an emphasis on exporting, which I think we have put some 
emphasis on, but the hope is that we will put even more on.
    And I am wondering what your thoughts are in looking at the 
legislation. I am not asking yet for an endorsement. We 
certainly would love for the administration to endorse the 
bill. It is a bipartisan bill as you know. Just so that we 
could get it to, before this session ends, this legislation, on 
the President's desk so it could be very robustly implemented.
    The strategy, have you looked at the eight provisions? Do 
you find we have identified some things that have not been 
heretofore well coordinated? And what perhaps do you think 
ought to be added to the bill to improve it?
    Ambassador Carson. Mr. Chairman, I won't speak specifically 
to the specific provisions of the bill because as I have said, 
we have not taken, the administration has not taken a position 
on it. But let me say that the administration, certainly 
Secretary of State Clinton, is focused very much on doing as 
much as we possibly can to strengthen trade around the world, 
but also in Africa.
    She has a policy of promoting economic statecraft and 
economic diplomacy using all of our Embassies in Africa and all 
of our ambassadors in Africa not only as our top diplomats but 
as our top trade promotion and commercial representatives. We 
want our Embassies in Africa to be known as hubs that can 
assist U.S. businessmen and women and investors to do business 
in Africa and to use our facilities to encourage trade and 
trade opportunities with local governments.
    I have mentioned in my testimony that in February of this 
year I organized and led a trade mission to four African 
countries. That trade mission brought together some 10 American 
energy companies to look at real opportunities in Africa in 
four very successful African states that had great energy needs 
and great energy potential. We think that we need and will do 
in the future, more of these kinds of focused trade missions, 
whereby we can help American countries be introduced to 
particular markets to gain access to senior government leaders 
and to network with local business officials.
    We also believe that it is critical to increase the level 
of awareness and information about the existence of 
opportunities in Africa. We have to break down the fear and 
apprehension that exists among some American companies about 
what exists in Africa. All too frequently the continent is 
looked at as a single entity and not as some 49, certainly in 
sub-Saharan Africa, some 49 different states.
    There are enormous, enormous opportunities in economies 
that are growing rapidly that have enormous and outstanding 
potential, who have the kinds of markets which American 
companies should be interested in, but they don't know yet 
about them. The other thing that we have got to do is----
    Ms. Bass. Can I interrupt you for just a second?
    Ambassador Carson. Yes, ma'am.
    Ms. Bass. You were referring to four countries that you had 
very successful energy exchange with. Which countries were you 
referring to?
    Ambassador Carson. Yes, ma'am. Those countries were 
Mozambique, Tanzania, Nigeria, and Ghana. Three of those 
countries are very high performing economies that are growing 
rapidly. All of them have tremendous energy needs, but all of 
them have enormous capacity to not only supply energy to their 
own countries but to the region as a whole.
    Mozambique has hydroelectric potential capable of not only 
satisfying the Mozambique market but also Tanzania and much of 
South Africa. It also has enormous gas deposits both Tanzania 
and Mozambique do as well. These are countries that are going 
to grow rapidly and they have a lot of potential.
    I think Congressman Rush in his remarks noted that all too 
often one looks at Africa and only thinks of the difficult 
places, the Sudans, the Somalias, the eastern Congo. We need to 
not focus on the difficulties that exist in some places, mix 
them up with the success, the promise, the potential and the 
enormously good prospects that exist across the continent in 
the Tanzanias, the Mozambiques, the South Africas, the 
Botswanas, the Ghanas, the Namibias, the Senegals, the Cote 
d'Ivoires where there is enormous potential, and where people 
are frequently frightened away because of something that is 
happening several thousand miles away. We have to break down 
these suspicions and concerns that are there. We have to 
educate the American business community about the enormous 
potential.
    We do look at strategies, and as I say AGOA is a part of 
that. More trade missions represents a part of that. Secretary 
of State's economic statecraft and diplomacy are a part of 
that. Working with our colleagues at Ex-Im Bank, with OPIC, 
with the U.S. Trade Representative's office are also a part of 
that to ensure that we can leverage what we do.
    And final comment, when we were out on the road in Africa 
on this energy trade mission, we had two of our colleagues from 
the Export-Import Bank were along with us. They can finance 
major projects. We also had a representative from the U.S. 
Trade Development Agency with us, and they finance major 
feasibility studies. We would have been joined by a colleague 
from OPIC, but they had a serious illness in the family and 
could not come at the last minute. So it is, in fact, not just 
us in the Department but a whole of government approach to the 
way we are trying to do this.
    It is important that we focus on the business and 
commercial side of this. This is the way that Africa is going 
to achieve sustained long term development and growth.
    Mr. Smith. I have a number of questions, but out of 
deference to our second panel and my colleagues and you for the 
delay, I will just ask two final questions and then submit 
other questions for the record.
    I will ask you if you could, Mr. Ambassador, if you could 
provide us, the administration, views on the legislation. It 
would be very, very helpful. I mean we are looking for a 
partnership here and any constructive criticism, language you 
think ought to be incorporated, because delay could quickly 
become denial and this session will end and then the whole 
process has to start all over again. And we all know how long 
it takes to start it up again.
    Let me just ask you, with regards to Ex-Im Bank. I have 
read their strategic plan very carefully. I would note 
parenthetically that Nigeria and South Africa account for over 
50 percent of the U.S. exports to sub-Saharan Africa. A part of 
the reason for the bill is to try to expand and to have a more 
robust effort strategy-wise to make sure that west Africa and 
so many other countries and regions are included.
    And there are nine focus countries at Ex-Im Bank, why there 
is not a greater focus on other countries, perhaps they should 
give us an answer to that. But in the legislation we do call 
for deployment or redeployment of more Ex-Im Bank personnel, a 
greater focus on Africa. They shift it from other areas. And so 
if you could speak to that issue.
    And secondly, the general wisdom is that the GDP of Africa 
will double in the next 10 years from $1.6 trillion. Have there 
been any qualitative analyses as to how foreign sourcing 
particularly to the PRC has hurt our ability to export 
especially finished products to China? I mean all of these 
trade policies go hand in hand, and obviously when most favored 
nation status that particularly relates to PNTR, without any 
linkage whatsoever to human rights and labor rights, China has 
gotten a huge benefit from that without commensurate benefits 
to the people of China and the working people especially. Not 
so with Africa. I mean there I think we can count on more 
people getting jobs at greater salaries and benefits than a 
dictatorship could ever provide.
    So this idea of analysis, has anybody looked at China, how 
our ill-advised policies toward Beijing and their ability to 
make finished products and then flood not just the U.S. but now 
sub-Saharan Africa with products, how that pushes us out of the 
picture of being able to export? Those two questions.
    Ambassador Carson. Mr. Chairman, I am not aware of such a 
study, but I will go back and ask whether our colleagues who 
cover China and Asia, about whether such a study exists.
    Mr. Smith. I would appreciate that. Because many of our 
factories have disappeared, but the focus of the bill, part of 
the focus, is meeting in smaller businesses which have not 
disappeared. And as we wrote into the language, trying to get 
more of the diaspora involved with, an even greater motive to 
reconnect with Africa seems to incentivize more trade which 
means everybody wins. So if you could look into that. The 
larger businesses have foreign source. They are now in China, 
but the others have not.
    And on the other question with the Ex-Im Bank?
    Ambassador Carson. I am not going to try and answer for the 
Ex-Im Bank officials, and I think that one is more directed at 
them and their particular strategy. I will say that they have 
been very good colleagues with us. They joined us on our energy 
trade mission back in February, and I know that they are 
looking and have been increasing the amount of funding that 
they have put into Africa. We think that it is very important 
that when American companies find opportunities to make sales 
that they have the support of organizations like Ex-Im Bank to 
help facilitate the financing.
    But I think your specific question, Mr. Chairman, should be 
addressed to Ex-Im Bank. I would not do it justice. I am not 
familiar enough with the internal strategies and workings of 
that organization.
    Mr. Smith. But you wouldn't disagree with their finding 
that half of all of our exports go to Nigeria and to South 
Africa, leaving large numbers of other countries where there 
could be, and that is not what they help facilitate. They claim 
in their strategy that that is where most of our exports go. Is 
that true?
    Ambassador Carson. Well, let me just say I think that they 
probably are using a fair amount of their money, their 
financing to support major capital purchases and investments 
such as aircraft, GE locomotives, GE medical supplies, large 
sales of machinery and equipment, and probably a lot of it 
going to support not only those kinds of capital purchases and 
expenditures, but those that may be related to mining and oil 
as well. That is again off the top of my head, but I would 
argue that is probably why it is concentrated there.
    Mr. Smith. Ms. Liser?
    Ms. Liser. Let me just also add though that while South 
Africa and Nigeria are our top two U.S. export markets in sub-
Saharan Africa, the other three of the top five are Angola, 
Ghana and Ethiopia, and we are sending a range of products to 
them. Machinery, vehicles and parts, some process oil products, 
aircraft, poultry, cereals.
    So I think that when you look at the chart I shared with 
you all, in terms of the numbers we have various countries 
where we are shipping over $1 billion in exports to them, and 
then a number of other countries where there has been 
significant growth between 2010 and 2011. So our view is that 
the trade between the United States and these countries is 
diversifying. We are getting more of a range of products coming 
from them to us and more of a range of products going from the 
U.S. to a wider range of countries there as well.
    Mr. Smith. And before yielding to Ranking Member Bass, 
Ambassador Carson, if you could get back to us on that if there 
is any qualitative analysis and whether or not perhaps that 
could be undertaken. We need to know, our chief competitor is 
the PRC, and when you have got gulag labor and a whole host of 
people receiving, large numbers of workers getting 10-50 cents 
per hour with no OSHA regulations at all, obviously it is hard 
for us to compete with that, but we need to know what we have 
been losing. Because again, we want to export good, fine 
products that have been made by workers who have been well paid 
with good benefits just like we want Africa to have the same.
    Ms. Bass?
    Ms. Bass. Thank you. I wanted to ask you a few questions 
and ask you, some of it you have already made reference to, but 
for me especially being relatively new would appreciate you 
being very specific of, for example, the Ambassador talked 
about eight countries that have U.S. Chambers. I would like to 
know which countries they are. And I mean if you don't have the 
information with you, if you could get back to me. And then 
what are some of the companies that are involved in these 
Chambers in the various countries?
    Ambassador Carson. Let me say that I think that someone 
from the U.S. Chamber, Mr. Eisner, is going to testify on the 
second panel and he can give you the list of companies. But I 
would say----
    Ms. Bass. You referenced those in your comments, that is 
why I was directing those to you.
    Ambassador Carson. No question, absolutely. But I think he 
can give you the most definitive response. But I think you will 
find in those countries, obviously the largest one is in South 
Africa, and there are some 600 American companies represented 
with offices, direct investment or representatives in that 
country and they cover the entire range. But I will let Mr. 
Eisner speak to that.
    Ms. Bass. And then following up on what the chairman was 
raising in terms of countries where we do business, I know one 
issue that you were trying to get at which what is the 
strategy, what are we doing to expand it beyond the handful of 
countries?
    Ms. Liser. You are speaking of the handful of countries we 
are exporting to?
    Ms. Bass. Right, exactly.
    Ms. Liser. But what I was trying to say earlier is that we 
actually have a wide range of countries that we are exporting 
various U.S. products to, and that continues to expand.
    But I do think that one of the things that you have 
mentioned in the bill that is very important in this process is 
educating and encouraging a greater understanding among U.S. 
businesses, and from our point of view small businesses. 
Because I think many of you know that the majority of our 
exporters from the United States are actually small businesses, 
and so we think that it is important to try to get out and 
communicate to them opportunities in Africa.
    And some of the small businesses don't actually do much 
exporting in general, so educating them about why they should 
look at Africa as a growth opportunity for them and for their 
small companies is something that we do but we could probably 
do much more of. And I think that we have a number of the U.S. 
agencies at the U.S. Export Assistance Centers that are spread 
all around the country that have the Department of Commerce 
person there, Ex-Im Bank, OPIC, SBA. And I think that we are 
working with them to try to make sure that our small 
businesses, diaspora-owned, minority-owned, women-owned 
businesses have a better understanding of where these 
opportunities are. Without them doing that all the policies 
that we put into place and strategy that we have in the U.S. 
Government will not necessarily result in the kind of exports 
that we want to see.
    Ms. Bass. It would also be helpful if the USTR would give 
us an analysis or assessment of the bill from your vantage 
point as well. The bill calls for USTR and the Ex-Im Bank 
officials to explore opportunities to negotiate new trade 
agreements in Africa, and I wanted to know your opinion of what 
kinds of trade agreements are most needed to foster that 
investment.
    Ms. Liser. Well, I think first of all, we have these Trade 
and Investment Framework Agreements which are in place. They 
cover now a wide range of countries because some of those 
agreements are with regional organizations, and I noticed in 
the bill that you talk about promoting regional integration as 
well. And we are trying to do that through these TIFAs with the 
East African community or the common market for Eastern and 
Southern Africa or the SACU countries.
    So we think that that will help to basically work with a 
wider range of countries to enhance our U.S. trade and 
investment relationship.
    Ms. Bass. And to what extent are U.S. businesses taking 
advantage, from your opinion, of the Ex-Im Bank and OPIC for 
commercial activity in Africa, either one?
    Ms. Liser. Again I would say what Ambassador Carson said 
that it is best to get that from them. But my understanding, I 
was just at the Export-Import Bank annual conference the other 
day, on Thursday and Friday, and then have also worked closely 
with OPIC.
    OPIC will tell you that their what they call exposure in 
Africa is actually very large. They have a number of loans and 
products that they are undertaking in sub-Saharan Africa, and I 
believe the same is true for Export-Import Bank. But I would 
just say that from what I can tell, there is a lot of activity 
on their part and a lot of businesses that they are 
facilitating to be in Africa from our end. So we can make sure 
that they have the questions and get back to the committee with 
a more detailed answer.
    Ms. Bass. That would be great. Thank you very much.
    Mr. Smith. Mr. Rush?
    Mr. Rush. Thank you, Mr. Chairman. Ms. Liser, I want to 
follow up some on the line of questioning that Chairman Smith 
asked. You are in charge of trade negotiations and policy at 
the USTR, and in that capacity I believe that you are part of 
the Trade Policy Staff Committee, is that true?
    Ms. Liser. Yes.
    Mr. Rush. What is that committee?
    Ms. Liser. The Trade Policy Staff Committee is the 
interagency process and committee that we have for discussing a 
wide range of trade policy issues all over the world actually. 
Within the Trade Policy Staff Committee we have a subcommittee 
on sub-Saharan Africa where we look at the U.S.-sub-Saharan 
Africa trade issues more specifically, and we also have a 
subcommittee on implementation of the African Growth and 
Opportunity Act. And that committee is the one that comes 
together annually to look at the 49 countries in sub-Saharan 
Africa and the criteria that Congress set up for AGOA 
eligibility and determine what to do.
    So I would say that that is the committee, that the Trade 
Policy Staff Committee is the process that we use to really 
coordinate with a wide range of U.S. Government agencies from 
the Department of Agriculture to U.S. Trade and Development 
Agency, OPIC, Ex-Im, State Department, Commerce Department and 
many others on our trade policies. I would say that is also the 
committee that when we were negotiating a free trade agreement 
with the five countries of the Southern Africa Customs Union, 
with SACU, up until about 2006 that is the committee that we 
would meet with to discuss our negotiating positions, what we 
wanted to offer to them and what we were looking for to get 
back from them as a part of those negotiations.
    Mr. Rush. And what is the status of your, you said in 2006 
you were engaged in a vigorous, robust process to develop free 
trade agreement with certain African countries. And in the last 
6 years has anything, what is the status of that?
    Ms. Liser. The U.S.-SACU Free Trade Agreement negotiations, 
we essentially came to point where we realized that their goals 
for the negotiations and ours, in terms of what Congress 
expects us to do in a free trade negotiation, we have what we 
consider to be gold standards for our free trade agreements, 
and the SACU countries were not in a position at that time to 
pursue that.
    Since then we have pursued with them a Trade and Investment 
Framework Agreement with the five SACU countries, and so we are 
trying to address some of the trade and investment challenges 
and issues that we have with those five countries through that 
TIFA.
    I would just mention one other thing that is a new trade 
and investment initiative that we are pursing with the five 
East African Community countries. And within that we hope to 
negotiate a regional investment treaty instead of a bilateral 
one, one country at a time. And this would be innovative. We 
have never done that before. So we would do a regional 
investment treaty and then we would also seek to negotiate with 
them, agreements on some key areas such as trade facilitation 
or standards. And by doing so we think that that would improve 
the business environment on their end. It would help U.S. 
businesses to be able to take advantage of the markets in East 
Africa, which as you know includes Kenya, Uganda, Tanzania, 
Burundi and Uganda, and we also believe that it would support 
regional integration.
    So I mention that to make the point that we are trying to 
find new kinds of tools and trying to see if we can use those 
to advance the relationship. We know that many things have 
changed since AGOA came into a place in 2001, and we cannot 
depend in 2012 solely on AGOA in order to advance our trade 
investment relationship with them.
    Finally, there are the bilateral investment treaties. And I 
do think that those are also important both for protecting the 
rights of U.S. investors in countries and also helping to 
improve the overall business environment in those countries as 
well.
    Mr. Rush. Well, in your opinion, how far are we away, this 
is an estimate on your part and I know this, this is looking 
into the future. From where we stand now, how far are we away 
from either a bilateral free trade agreement with an African 
country other than Morocco, a sub-Saharan African country, how 
far are we away either from an original free trade agreement or 
a bilateral free trade agreement?
    Ms. Liser. I think that we are actually getting to a point 
where we want to sit down, as we are looking at extending AGOA, 
it is a perfect time and opportunity to sit down with the 
countries in sub-Saharan Africa and particularly some of the 
key ones, and to say to them that as we consider on the U.S. 
side extending AGOA, we also want to explore other 
possibilities including potential free trade agreements with 
some of the countries.
    And I think that it is more of a challenge to negotiate 
with a group of countries. It is far more difficult because 
then you are dealing with laws and regulations across a group. 
But we do think that as opposed to what the Europeans are 
doing, we don't want to break apart the regional groupings that 
they have. We think we should honor and respect what they are 
trying to do.
    So again we hope that this new initiative that we have 
launched with the East African Community could be a building 
block for a free trade agreement with them. That by the time we 
have negotiated what we call chapters, a chapter on investment, 
that is what the regional investment treaty would be, a chapter 
on standards. A chapter on trade facilitation. A chapter on 
customs rules. That those are the very chapters that go into an 
FTA.
    So through this process we do see that this may be an 
avenue to that and then beyond that I think that we will be 
discussing over the next year or 2 with some of the other 
African countries what are the possibilities for bilateral free 
trade agreements.
    Mr. Rush. I would like to ask both of you a yes or no 
question. It is a simple yes or no question. Do you think the 
U.S. has enough commercial officers in the various hubs in 
Africa, especially in those countries that are considered as 
economically advanced? Yes or no?
    Ambassador Carson. Congressman Rush, Secretary Clinton has 
been very, very definitive in stating that every American 
ambassador is a commercial officer on behalf of the United 
States Government. Every Embassy is a commercial Embassy as 
much as it is a political Embassy. So if you operate under the 
notion that our ambassadors are doing commercial work, that our 
Embassies are representing American business and commercial 
interest, we are represented universally.
    Mr. Rush. Is that a yes answer? Is that a yes?
    Ms. Liser?
    Ambassador Carson. Congressman Rush, I thought I had 
slipped around that. But let me say, the assignment of 
commercial officers overseas is a responsibility of the 
Department of Commerce. So I think that that again, like the 
Ex-Im Bank question, is one that should be directed at the 
Department of Commerce.
    But again my response is, Secretary Clinton's strategy and 
policy is very clear that we believe in economic statecraft and 
diplomacy. Every American ambassador overseas is supposed to be 
working on behalf of American business interest as much as our 
foreign policy and political and security interest. And each 
one of our Embassies should, in fact, be a projection of our 
values at home including our business and commercial values.
    Mr. Rush. Ms. Liser, yes or no?
    Ms. Liser. My one word answer is ditto, everything that the 
Ambassador has said, thank you.
    Ms. Bass. So if that is the answer then could you explain 
what in addition those offices would do? Because it sounds like 
they are not really needed because the Embassy does all that, 
so what in addition would they do?
    Ambassador Carson. The things that they bring to the table 
are a closer relationship with the American business community. 
They bring to bear a network of offices around the United 
States that are in direct contact with both large and small and 
medium sized enterprises, some that are frequently not aware of 
the potential and opportunities that exist in Africa.
    As I understand it, the Department of Commerce operates a 
number of regional offices around the United States where they 
are engaged in helping small, medium sized and large businesses 
to find markets and to find opportunities. They can help in 
that way probably in a more direct sense than we can.
    We have a number of specialists in the field who do 
economic and financial work. They bring to bear specialties in 
trade promotion, identification of trade opportunities, the 
ability to find companies that fit into a marketplace to fill a 
tender that may add a degree of fidelity and expertise that we 
may not always know.
    We all know Boeing. We all know GE. We all know the very 
large players. But as my colleague said earlier, if we are 
looking for smaller companies in the United States that are 
unfamiliar with the marketplace, there may be commercial 
offices in the United States who can be linked up to fill that 
niche that may be useful in Ethiopia or Nigeria or South 
Africa. They have a role to play, but again I go back to the 
statement that I said, as an ambassador overseas today in 
Africa, the job is not simply dealing with political issues or 
refugees or security issues, it is dealing with commercial 
issues as well. We are trying to promote that seriously and 
intensely.
    Mr. Rush. In the interest of time I really would like to 
insist upon a yes or no answer to the following question. Do 
you believe efforts should remain to accelerate African 
regional integration, yes or no?
    Ambassador Carson. Absolutely, yes.
    Mr. Rush. Ms. Liser?
    Ms. Liser. Yes.
    Mr. Rush. Do you believe cultural understanding and 
appreciation is a powerful tool to advancing our commercial and 
foreign policy?
    Ms. Liser. I will take the first yes on this one.
    Ambassador Carson. The answer is yes, better understanding 
never hurt anyone.
    Mr. Rush. All right. In 10 years of AGOA, African countries 
still need technical assistance to further benefit from the 
preferential treatment especially in the non-oil sector. Now 
that we know that the African diaspora is one of the best 
educated demographic groups around the world and is willing to 
trade, do you believe that they could fill that gap, members of 
the diaspora?
    Ms. Liser. I know you wanted a one-word answer, but I want 
to say that not only is the answer yes, but that we are 
actually seeing that right now. I have visited factories and 
facilities in different African countries where had it not been 
for African diaspora who had moved from the U.S. back to their 
home countries, those factories and businesses would not have 
been established. So yes, and we would like to see much more of 
that happening.
    Mr. Rush. Ambassador Carson?
    Ambassador Carson. The answer is yes, diaspora can make a 
very significant contribution to the continued and sustained 
development of the countries from which they or their parents 
may have come from.
    Mr. Rush. And do you believe that--I know you can't take a 
position on supporting or non-support of this bill, but do you 
believe that this bill would help to address some of the 
obstacles to further developing trade with the African 
countries?
    Ambassador Carson. To give that a single word answer would 
not do justice to the bill and it would break the neutrality 
that we have with respect to it at this point.
    Ms. Liser. I would also say that we have been looking at 
the goals of the bill, and I think while we certainly cannot 
say that the administration supports the bill, I think that we 
share with you a number of the goals that are reflected in it.
    Mr. Rush. And finally, how do you suggest that we engage 
the diaspora to help them participate in the furtherance of the 
growth of the African economies?
    Ms. Liser. Well, I think that there are a number of ways 
that that can happen and is happening. And I know that I have 
personally participated in a number of conferences and seminars 
all around the country that have been organized by various 
diaspora groups. And where they had delegations and trade 
missions that had come from their particular country, and asked 
us to come and be a part of a 1-day conference or seminar where 
that particular diaspora along with their businesses that had 
traveled from the capital wanted to sit down and learn more 
about U.S.-Africa trade, AGOA, et cetera.
    So these organizations actually are in my view very 
important. They are active. I won't say that for every single 
country that they have an active organization, but again, for 
the ones that are relatively active I think they are doing a 
good job.
    And I would end by saying that I also remember a few years 
ago we had meant with a group of Cape Verdeans, American Cape 
Verdeans, and talked about this, and then they decided that 
they wanted to take a mission of Cape Verdeans from the U.S. to 
Cape Verde to try to see what kinds of business opportunities 
they could explore with their Cape Verdean brothers and 
sisters. And when they came back from that I was pleased to 
hear about several of them that had been launched and further 
follow-up that they were going to be doing.
    So they were taking their skills, their knowledge of the 
U.S. market, their resources and then the connections that they 
had with family and others there in Cape Verde to do that. And 
they are not the only ones who have done it but I just wanted 
to use that as an example.
    Ambassador Carson. Congressman Rush, I think one of the 
most effective ways to find out about the African diaspora is 
to make contact with the Embassies and the ambassadors of the 
African countries that are in Washington, most of whom try to 
keep a fairly good and elaborate list of their citizens or 
their dual-national citizens who are in the United States.
    Contacting those Embassies, finding out the names and 
leaders of the various diaspora groups, where they are located 
in the United States, is one way to reach out to that diaspora 
community. I think that many of the Embassies and many of the 
African ambassadors meet on a fairly regular basis with 
diaspora communities around the United States, and using them 
as points of reference or intermediaries is always helpful.
    There are also a number of groups in Washington and some 
outside of Washington that also try to maintain contacts with 
the African diaspora without sort of showing favoritism toward 
the one or another of them. There are these groups that are 
around and they too have good relationships with various 
communities across the United States.
    Mr. Smith. Thank you, Mr. Rush. Let me just in concluding 
ask if it would be unreasonable to ask that within a month or 
so, say mid-May, if you could get back to us with what 
recommendations you think would improve the bill, and hopefully 
an overall statement of either support or opposition. Because 
like I said, delay could easily be denial as the clock ticks 
out for the end of this session. So if you could get back to us 
I would appreciate it.
    And getting back to the Foreign Commercial Service 
officers, AGOA envisioned 14. The number is less than that and 
seems to be going in the opposite direction. Our legislation 
would say not less than 14. Believing that while the ambassador 
may work with the Boeings and the larger corporations, he or 
she would be less likely to be as effective just given all the 
time constraints they have with all their huge portfolio to 
deal with many of the midsize or small businesses, which is 
where that commercial officer could come in. So thank you.
    If you could get back, would that be reasonable?
    Ambassador Carson. Mr. Chairman, absolutely very 
reasonable. Absolutely no question we will get back to you.
    Mr. Smith. Thank you both for your service and for your 
testimony.
    Ambassador Carson. Thank you.
    Mr. Smith. I would like to now ask our second panel if they 
could make their way to the witness table. Beginning first with 
Isaiah Washington, who is an acclaimed actor best known for, or 
known for his role in the ABC drama, Grey's Anatomy, among many 
other films and stage roles.
    After discovering ancestry that led him back to Sierra 
Leone, he traveled there and established his foundation, the 
Gondobay Manga Foundation, which has since opened its first 
school. He was a guest of the first White House Summit on 
Malaria in 2010. Named as advisor to President Koroma of the 
Republic of Sierra Leone in 2008, during the U.N. General 
Assembly, Mr. Washington was given the honor of being the first 
African-American to be bestowed full citizenship of Sierra 
Leone since it was granted to W.E.B. DuBois, back in the 1950s.
    We will then hear from Mr. Scott Eisner, who is currently 
the Executive Director of the Africa Business Initiative at the 
U.S. Chamber of Commerce. Before joining the Chamber, Mr. 
Eisner worked in international politics working for the 
International Republican Institute in Malawi, Africa. He has 
held numerous positions within the Chamber prior to his current 
post, and has focused much of his effort toward strengthening 
U.S.-Africa trade relations and promoting the interests of the 
American business community throughout the continent.
    We will then hear from Reginald Maynor, who is Director of 
the International Division of Luster Products, Incorporated. He 
has 35 years of professional sales experience as well as 
extensive travels throughout Africa. Throughout his 23 years at 
Luster, Mr. Maynor has increased international sales 
substantially, managed a satellite manufacturing facility in 
South Africa and led Luster Products to receive Exporter of the 
Year in 2002, Minority Exporter of the Year for the U.S. 
Government, and several other recognitions. Mr. Maynor oversees 
all international trade and has always had a focus on 
empowerment and professional growth paying special attention to 
Africa.
    Mr. Washington, if you would proceed.

STATEMENT OF MR. ISAIAH WASHINGTON, ACTOR, PRESIDENT, GONDOBAY 
                MANGA FOUNDATION (SIERRA LEONE)

    Mr. Washington. Good afternoon. I would like to thank 
Chairman Chris Smith and Ranking Member Karen Bass for inviting 
me to testify before this subcommittee, as well as Congressman 
Bobby Rush. I think the Increasing American Jobs Through 
Greater Exports To Africa Act of 2012 is an important means of 
making U.S.-Africa trade more beneficial to Americans, which 
will make the African Growth and Opportunity Act (AGOA) and 
other trade measures aimed at increasing U.S.-Africa trade more 
attractive to those who are not directly involved in African 
issues. I am particularly interested in the impact that this 
bill can have on encouraging the African diaspora in America, 
both the traditional diaspora members such as myself and those 
who more recently came to this country.
    Since I discovered my own connection to the Mende and Temne 
people of Sierra Leone, I have felt compelled to contribute to 
the reconstruction of Sierra Leone, which is recovering from a 
destructive civil war, and now soon on April 27th, will be 
celebrating its 51st year of independence with 10 years of 
peace.
    The Gondobay Manga Foundation that I have established works 
cooperatively with Sierra Leoneans to achieve interventions 
that meet and have met the genuine needs and not just engage in 
activities to satisfy my need to help. We have collaborated to 
build schools and provide clean water, and more broadly we are 
working with top universities of the United States and abroad 
to establish internships that will spur academic and community 
involvement.
    Topics and specialties being pursued include African-
American studies, the history of the tranatlantic slave trade, 
the plight of child soldiers, agricultural development and 
mechanized farming, hospital administration, women's health 
issues, tropical disease research and urban planning. My 
efforts are part of a growing trend of members of the African 
diaspora who are reconnecting with their homelands or the 
homelands of their ancestors.
    I have looked at this example as well as my heroes, the 
late Reverend Leon H. Sullivan, who spent a great deal of his 
life connecting African-Americans and others to countries in 
Africa. Organizations he founded such as Opportunities 
Industrialization Centers International and the International 
Foundation for Education and Self Help have helped members of 
the diaspora and others who volunteered their skills to teach 
young people in Africa or take part in training programs for 
African entrepreneurs and farmers. I personally use Reverend 
Sullivan as a model for achieving sustainability and my 
citizenship. One village, one region, and one country.
    In November 2007, my foundation opened its first school, 
Chief Foday Golia Memorial School in Njala Kendema village for 
150 students in grades K through 5 that I am now proud to say 
that has grown to 400 students. The new school named in honor 
of the former leader of the village replaced two grass huts 
that was not suited for their occupants. Since then, others in 
the diaspora have built wells and undertaken other projects to 
the benefit of the African people, and some have used 
remittances to their home countries to meet the needs of their 
families. Increasingly both the traditional diaspora and the 
recent diaspora here in America have looked toward investing in 
Africa.
    A report released a few years ago by Merrill Lynch, a 
leading international investment company, indicated that while 
Africa offers investors tremendous opportunities, there is too 
little available information on African markets and by 
extension, the companies listed on those markets. 
Liquidafrica.com is one of the few sources of information on 
African exchanges and their listed companies, but it is not as 
widely known as other sources of investment information.
    Magazines such as Fortune, Business Week and even Black 
Enterprise do not cover African exchanges or companies on a 
consistent basis, with the result that American investors 
remain largely unaware of available opportunities. Return on 
investment in Africa has averaged nearly 30 percent over the 
last decade. On African stock exchanges the most profitable 
sectors are banks, real estate, and hotels and tourism.
    Recently the International Monetary Fund rated the Nigerian 
Stock Exchange as the best in the world in terms of returns. 
The Nigerian Exchange beat fellow exchanges in developing 
countries such as South Africa, Turkey, India, Brazil, and the 
United Arab Emirates. In fact, the Nigerian Exchange beat out 
the New York Stock Exchange and the London Stock Exchange 
purely on a rate of return, in the IMF report. Of course the 
Johannesburg Stock Exchange is still the African market 
capitalization leader at $561 billion.
    The advances on African exchanges occurred within a broad 
range of companies including banking such as the Mauritius 
Commercial Bank, telecoms in Zimbabwe's ECONET, industrials in 
the Nigerian cement, breweries such as the East African 
breweries of Kenya, and there are many others waiting for the 
partnerships and investment to reach the next level that this 
bill could provide, creating jobs and wealth for countless 
Africans.
    The African-American market in the United States is an 
excellent match for African investment destinations. Being 
increasingly sought after by investment companies due to rising 
purchasing power, America's largest racial minority had a 
combined purchasing power of $318 billion in 1990. Eighteen 
years later that purchasing power had grown to $913 billion and 
is predicted to reach $1.2 trillion by 2013. According to a 
2005 study by Juice Market Research, African-American investors 
were ``considerably more likely than the general population of 
investors to have a variety of investment products such as 
stocks, bonds, mutual funds and annuities.''
    Prior to the global economic meltdown, this tendency 
attracted companies such as Charles Schwab, Smith Barney, 
American Express, and Merrill Lynch, which has formed 
partnerships with African-American professional associations 
and other groups to encourage investment by this group of 
investors through their firms.
    Higher income African-American investors reached a peak in 
terms of percentage of investing in the early years of this new 
century. An estimated 74 percent of African-Americans who 
earned more than $50,000 owned stocks in 2002, closing the gap 
between them and similarly situated white investors whose 
percentage reached 84 percent that year. Many of these gains 
have been eroded by the global recession, and still African-
American investors continue to invest in real estate rather 
than stocks even in a difficult economy. The consensus is that 
this is largely due to a lack of knowledge about the investment 
opportunities, which would certainly include African 
investments.
    This is why I am establishing my new company, the Hira 
International Investment Group. The mission of HIIG is to help 
transform, first Sierra Leone, and then the rest of West Africa 
in stages, by strategically leveraging financial and human 
capital to profitably and ethically develop land, natural 
resources and human resources. HIIG will identify and apply the 
necessary resources to achieve its mission by utilizing its own 
expertise and connections while providing experts on a project 
basis. HIIG also will create alliances with qualified companies 
and organizations to accomplish specific tasks.
    Since I started my foundation and began to become more 
involved in Sierra Leone, I have had numerous inquiries, and I 
mean numerous, about business opportunities in Sierra Leone 
from investors from around the world. I have been overwhelmed, 
graciously so. Your bill could encourage American investors to 
recognize and take advantage of the opportunities in Sierra 
Leone and throughout the rest of ECOWAS, West Africa. I chose 
Sierra Leone as a starting point because that is where my 
ancestors are from and that is where my mother is from, and 
women should always come first.
    West Africa is a region of Africa from which most members 
of the African diaspora here in America have originated. There 
is so much work to do in this region of West Africa that I am 
willing to leave other regions for those who have the desire 
and to invest and partner with other African businesses. This 
bill could be the catalyst to open the floodgates of American 
investment and business to business relationships with African 
partners that will fulfill the promise of AGOA and create more 
development than any aid program could ever hope to achieve.
    Thank you for introducing this bill, and I urge you to do 
all you can to pass it.
    [The prepared statement of Mr. Washington follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Washington, thank you very much for that 
statement, and Ms. Bass and I were just talking, you never hear 
this talked about on CNBC as it ought to be. And so thank you 
for your testimony and for your leadership.
    I would like to ask Mr. Eisner now if he would present his 
testimony to the committee.

   STATEMENT OF MR. SCOTT EISNER, EXECUTIVE DIRECTOR, AFRICA 
     BUSINESS INITIATIVE, UNITED STATES CHAMBER OF COMMERCE

    Mr. Eisner. Thank you very much, Mr. Chairman, Ranking 
Member Bass, Mr. Rush, the staff of the committee. I think you 
guys do a terrific job and we are here to support you in any 
way we can. I want to thank you for the opportunity to testify 
today on a region of importance to U.S. trade, investment and 
economic growth.
    Against the backdrop of sagging economic activity in so 
many emerging markets, sub-Saharan Africa is an investment 
destination that can no longer be overlooked regardless of the 
sector in question. Six out of the ten fastest growing 
economies in the world over the past decade are found in sub-
Saharan Africa.
    Looking forward, demographic trends suggest that by 2050, 
one in four workers in the world will be African and the 
continent will have over 1 billion people living on it. Compare 
this to China's one in eight workers and the buzz over China's 
untapped market, and we can begin to see the magnitude of the 
opportunity at stake in Africa. It is time for the U.S. to be 
creative and aggressive and to position our country in a way 
that will make us commercially competitive with the biggest 
international presence on the continent, namely China. It is 
time to move away from a strictly aid-focused model to one of 
private sector-led development. And why would we do this? 
Because we have learned over time that market-based solutions 
are the only real path to economic stability and long-term 
prosperity.
    So our challenge now is to operationalize the opportunities 
that Africa affords, to develop specific strategies and to 
mechanisms to promote U.S. business engagement throughout 
Africa or risk being left behind. That is the goal of the 
Chamber's Africa Business Initiative. To encourage the U.S. 
Government to pursue policies that foster foreign direct 
investment, facilitate U.S. trade with African countries, 
expose our companies to the vast economic opportunities across 
the continent, use our foreign assistance in ways which will 
help Africans develop as manufacturers, workers and consumers, 
and to expand the role of our AmChams across the continent. And 
we can talk more about this in the question and answer session. 
I will note that Sierra Leone was the latest of our AmChams to 
come on board as full accreditation.
    The fact of the matter is, when it comes to seeing new 
opportunities for trade and investment in Africa we are really 
not alone. Over the last 10 years, investment in Africa from 
China, India, and Brazil have increased eightfold. Over the 
same period, U.S. trade with Africa has increased by just a 
multiple of three. The U.S. Export-Import Bank support to 
projects in sub-Saharan Africa has risen from an average of 
$455 million annually between 2006 and 2009, to $1.4 billion in 
Fiscal Year 2011. And yet even at this rate of growth, the U.S. 
still plays a distant second to China's Ex-Im Bank, which 
commits over $6 billion annually.
    So what policy initiatives can help us level this playing 
field, the playing field on this last emerging market as we see 
it? Let us start with this act and the passage of the 
Increasing American Jobs Through Greater Exports To Africa Act, 
which the Chamber believes would be a clear signal that the 
U.S. Government takes seriously its role in stimulating greater 
foreign direct investment from the U.S. to Africa. Let us also 
take steps to ensure that American firms seeking to break into 
African markets have commercial support in our Embassies. For 
years the Foreign Commercial Services officers in missions 
across the continent have provided valuable on the ground 
assistance to American companies in Africa. But now just as 
many in the American business community are beginning to focus 
on Africa in earnest, the Foreign Commercial Services footprint 
is shrinking. And if that decline isn't reversed the U.S. 
economy will pay a price in lost deals and decreased 
competitiveness.
    In the same spirit, the U.S. Chamber continues to support 
more Africa-targeted funding from U.S. Government agencies that 
are already successful supporting U.S. investment in emerging 
markets. That begins with a full and speedy reauthorization of 
the Ex-Im Bank and in coming months the Overseas Private 
Investment Corporation. These two agencies along with the U.S. 
Trade Development Agency have critical roles to play as Africa 
moves into the global market. Traditional foreign aid can also 
be creatively deployed for public health. This is one area that 
materially and positively impacts Africans as employees, 
consumers and business partners.
    The Chamber also supports the effort to establish 
formalized trade and investment treaties with U.S. and African 
regional economic communities. The gains from these agreements 
are indisputable. For example, following the trade investment 
framework agreement between the United States and the EAC in 
2008, U.S. exports to this bloc shot up by roughly 33 percent.
    Finally there is AGOA. It is not only good for the 
economies of sub-Saharan Africa but it also offers tangible 
benefits for U.S. companies here at home. The action here is 
urgent. AGOA's expiration in 2013 threatens to undermine the 
significant gains that African economies have made under this 
program. As early as this September, AGOA's third country 
fabric provision is slated to expire, directly threatening not 
only tens of thousands of jobs across the continent but also, 
and this is key, the good standing of the United States as a 
reliable partner for Africa's development. We need to extend 
and expand AGOA, not let it expire.
    I presented the opportunities but I would be remiss if I 
did not discuss some of the risks. We have a very small window 
of opportunity here of 3-5 years to economically engage in 
Africa or risk being left behind. The demand for high quality 
U.S. goods and services by those living in Africa is 
dramatically increasing, but in the not too distant future our 
competition in these will improve the quality of their products 
to match that of ours, and our European competitors will have 
trading preferences that we don't enjoy due to their aggressive 
economic partnership agreements. So if we don't act now we 
might as well hang an out-to-lunch sign on the U.S. as it 
relates to doing business in Africa.
    As I close, I want to draw your attention to an interesting 
thought that a South African friend recently shared with me. He 
said, as the U.S. economic focus is pivoting toward the BRIC 
markets, and mainly Asia and Brazil, they, the BRICS are 
pivoting toward Africa. The question is, what is it that they 
know that you don't?
    Mr. Chairman, on behalf of the U.S. Chamber, I would like 
to thank this committee for affording me the opportunity to 
testify. As I said at the outset, Africa must increasingly 
become a key trading partner and investment destination for 
American companies, and the Chamber stands ready to assist in 
any way we can. Thank you.
    [The prepared statement of Mr. Eisner follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony and 
your insights.
    I would like to now ask, Mr. Maynor, if you would present 
your testimony.

  STATEMENT OF MR. REGINALD MAYNOR, DIRECTOR OF INTERNATIONAL 
            DEPARTMENT, LUSTER PRODUCTS INCORPORATED

    Mr. Maynor. Mr. Chairman, Ranking Member Bass and members 
of the committee, I want to thank you for the opportunity to 
address this committee on the subject of U.S. jobs and trade 
with the African continent. Today I provide a summary of my 
full remarks which I plan to submit for the record.
    The late Fred Luster, Sr., founded Luster Products in 1957. 
As the company matured, the focus on international trade and 
the opportunity within the diaspora became a priority. We are 
glad to see that clean water is a focus for African growth, 
because we as a company have drilled 20 wells, ourselves, in 
West Africa. We employ over 350 people worldwide with a 
corporate office in Chicago, But we believe in conducting 
business in such a manner as to be a positive role model to the 
community, to maintain the highest moral and ethical standards 
of business.
    We have a rich history of doing business in Africa for the 
past 30 years. We currently sell approximately, U.S. dollars, 
$2 million in West Africa, $1.5 million in Southern Africa and 
$1.5 million in East Africa. Though these may be modest numbers 
against some of our colleagues and multinational companies, it 
has been a very viable business proposition for us as a 
company. We have a virtual office in South Africa and we 
manufacture a few items from our range within South Africa.
    But what we have found is that by having an office and a 
manufacturing plant in South Africa that we grew our exports as 
a result of local presence. So having set up in another country 
did not affect our exports. Our exports actually grew. The 
region with the most long-term potential is sub-Saharan Africa 
and all of the countries within that territory. Each of these 
regions have their own unique way of conducting business, but 
in that uniqueness is great opportunity.
    I see the transformation of a hair stylist when you teach 
them a new technique and some fundamental business practices. I 
see the glow in the consumer's eyes when you do a makeover 
style that is both different but practical for their lifestyle. 
Unbeknownst to a lot of people, the hair care business is one 
of the largest entrepreneurial enterprises for people of color 
and women specifically.
    I see the respect that we get as a byproduct of also having 
given it first. And we pride ourselves in being ambassadors of 
sorts for the U.S., to demonstrate that we have a level of 
commitment to quality and excellence that cannot be rivaled 
anywhere else in the world.
    Our biggest challenge is being able to sustain business in 
Africa. As a small minority-owned business we do not have the 
ability to extend credit to African companies that want to be 
long-term customers. Low interest loans would be a benefit both 
here and abroad. Some of our more mature markets are either 
flat or challenged due to external forces from multinational 
companies, cheaper goods, some of which could be counterfeit or 
deceivingly similar with inferior ingredients. So trademark 
enforcement is a key.
    Our unwillingness to conduct in any back room agreements 
just to solidify business has at times been a barrier to 
growth. But we find that once you establish the rules of 
engagement most people will comply. And to this I say that 
business can be done in an ethical manner in Africa.
    Our experience with Ex-Im Bank has been up and down with 
regards to validating accounts. We feel that this process could 
be refined. There is a need for government to government 
cooperation with regards to trade restrictions, duties and 
trademark protections. We actually had a case in South Africa. 
Infrastructure incentives for U.S. companies would also help to 
make us more competitive.
    We all know the potential for Africa has never been 
greater. Our task is to help improve the economical well being 
of its people, to raise their standard of living and offer them 
the commitment to training, opportunity and the biggest 
commodity of all, hope. This bill would definitely help U.S. 
companies to grow because you will have created a solid bridge 
to the future that is dependent on quality goods. And it must 
be a win-win scenario where empowerment is just as important as 
commercial gain.
    Our plans at Luster Products is to grow our African trade 
by at least 100 percent in the next 5 years. We also plan on 
restructuring our South African operation in order to better 
take advantage of the realities of that region. And we are 
always seeking new opportunities on the continent with a 
pioneering spirit as we as Americans always do.
    And in conclusion I would once again like to say thank you 
for the opportunity to address this committee, and I would 
especially like to thank my Congressman, Bobby Rush. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Maynor follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Maynor. Thanks to all 
three of you, your testimonies are outstanding. They provided 
us with a blueprint for action. I think having the Chamber 
strongly supporting this legislation is huge, because I think 
as all of you have pointed out, the opportunities for Americans 
and for American investors have been largely ignored and under-
recognized. I mean I didn't know that return on investment in 
Africa, as Mr. Washington, you pointed out, has averaged nearly 
30 percent over the last decade. When most Americans are losing 
their 401(k)s, had they been invested elsewhere, in Africa, 
they would have been doing quite well.
    So again I want to thank you on behalf of the committee for 
your humanitarian work as well as in Sierra Leone. This 
subcommittee and I personally for years worked on the court 
there. David Crane was our chief prosecutor. And the pain and 
suffering endured by the people of Sierra Leone is 
incalculable. And to be on the ground helping out with 
education and other initiatives is, it needs to be praised for 
the great work that it is.
    The idea of Ex-Im Bank going out of business as you pointed 
out, is disconcerting in the extreme, especially as it relates 
to Africa. And you might want to expand upon that if you would. 
I think the point you made of the U.S. playing second fiddle to 
China export credit agencies, which are committing 
approximately $6 billion compared to our $1.4 billion, it seems 
that we are missing the boat by a large amount, which is why we 
are promoting this bill.
    We think we need to reenergize, refocus, recalculate, and 
really get all the agencies--and Ambassador Carson is a very, 
very effective Secretary and as he was Ambassador, but we don't 
have the coordination among Commerce and among all the other 
disparate agencies that we need to really have a well honed 
strategy for Africa.
    So thank you for that support and for your comments, all of 
you, but if any of you would like to, and you especially, Mr. 
Eisner, on the issue of what happens to Africa and to U.S. 
businesses there if Ex-Im goes out of business.
    Mr. Eisner. Sure, I would be happy to answer that. The fact 
that we are playing such a catch-up role, and it is not just to 
China, it is to the lending institutions around the world as 
was said by a predecessor, the previous panel. It is the Indias 
of the world, the Turkeys, the Canadians right across our 
border up to the North are playing a hockey game around us, and 
we are just kind of standing still looking at the future kind 
of questioning where it is going.
    And that is why we feel at the Chamber, we really need to 
look at not just the--in the Foreign Commercial Services arena 
I understand that there is some 50 economies that they have 
identified as why they have pared down some of their operations 
in Africa. And while that is great that we are looking at the 
50 current economies, we are not looking at the next 50. And I 
think that is some of the struggles that we applaud this bill 
for is looking beyond where we are today to seeing where our 
customers are going to be in the future and where our exports 
are going to be driven, and that is clearly to Africa.
    So the fact that the Senate and the House are taking so 
long to reauthorize the Ex-Im Bank is disconcerting to the 
business community. The fact that there is even a debate about 
the validity of the Ex-Im Bank I think is a little interesting 
to say the least. I will hold the words back a little bit. But 
the Bank runs out of, I think, funds at their $100 million cap 
at the end of this month or early next month, and without swift 
action by the Congress we are going to be left with a lot of 
people around the world scratching their heads wondering why is 
the U.S. turning around and turning its back on global 
expansion.
    And that is the question I leave here today wondering is 
how do we do that as a country that has been looking so 
expansively across the years, and to figure out how we are just 
looking so insularly when all of our markets are broad. And our 
friends from Luster here, I think, have pointed it out that 
they know where the market is and it is called Africa.
    Mr. Smith. Let me just ask you, comment if you would like, 
any of you, but I have actually chaired 40 hearings over the 
years on China's human rights violations, and many of those 
hearings have focused on the one-child-per-couple policy that 
has resulted in some 100 million missing girls. Forty to fifty 
million men won't be able to find wives by 2020. The women have 
been exterminated through sex-selection abortions. The other 
side of that issue that has not been focused on enough is that 
they are going to have such an aging population with such a 
small number, relatively speaking, of working men because the 
women are gone proportionally, that China will find itself 
economically coming apart at the seams.
    Not so with Africa, where you pointed out, Mr. Eisner, 25 
percent of the global workforce will be in Africa, sub-Saharan 
Africa, by 2050. And that shows, again if we want to make a 
bet, a prudent bet where is the future, it is in Africa. It is 
not in China. It is committing suicide, frankly, with its one-
child-per-couple policy. I would note parenthetically that I am 
very concerned about people at the U.N. Population Fund and in 
Beijing trying to impose on Africa what they have imposed upon 
themselves. That is, child limitation policies.
    And they are being aggressively, virtually every African 
health minister 3 years ago was invited to Beijing for a week 
of wining and dining, and the argument was made that if you 
want economic growth that approximates what is going on in 
China, follow the Chinese model. Limit children, because they 
are an anathema to economic growth. Nothing could be further 
from the truth. It doesn't bear out empirically, but some have 
bought into that snake oil. I hope that would be resisted by 
our African friends because the argument has surface appeal, 
but it doesn't hold up under scrutiny.
    But again, where is the workforce, where is the action 
going to be? Seems to me it couldn't be clearer. It will be in 
sub-Saharan Africa.
    Mr. Rush. Mr. Chairman, please excuse me, but if I just 
could interrupt just for a quick second. I had a meeting 
scheduled previously with the noted musician and performer, 
Styx, so he is there and I wanted to come out. I think that 
with Isaiah here and Styx in the same room at the same time, I 
mean this is a rare moment.
    So Mr. Chairman, thank you. I just wanted to let him--in 
the same room with Isaiah Washington at the same time.
    Mr. Smith. We ought to get a picture together.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Washington. Thank you.
    Mr. Smith. Okay, just--Mr. Washington?
    Mr. Washington. Thank you, Mr. Chairman, I do appreciate 
your sentiment. And I do agree by actually 2040, Africa is 
going to be one of the youngest markets out there looking for 
opportunities to be consumers to new consumers. I know for a 
fact in Sierra Leone, which is no bigger than the state of 
South Carolina, the former child soldiers there are now very 
entrepreneurial. But if they are not, their issues and their 
needs for their children and their families are not addressed 
immediately, then they already know how to do their former job 
during the civil war.
    All of these countries, every time anything goes on in 
Liberia or Guinea, I hold my breath. As long as Guinea is doing 
well or Liberia is doing well then I feel really good about 
Sierra Leone. They are all intertwined as far as I am 
concerned.
    Although my frustration is the same question, is what is 
the problem? Is it psychological? Is it philosophical? Is it 
guilt? Is it just denial, or what is the problem? Why hasn't 
the great United States with access to trillions of dollars--I 
had this conversation with Congressman Conyers 3 years ago. 
Numerous attendants to Congressional Black Caucus', and I have 
collected over 250 business cards. And I haven't had one call 
asking me to bring them in--unbelievable. I have access to 
6,500 hectares of arable land right there in Sierra Leone that 
is rife to grow anything from cotton to sorghum to sugar to 
anything you want, but there is zero interest.
    And it is really interesting. I have some people that come 
up to me, and I think with many of us there is this trauma, 
this thing that no one wants to talk about, slavery. Many 
business persons based on--I have had African-American business 
persons based on their skin being lighter than mine, that was 
their only reason they didn't want to invest in Africa--because 
they were afraid that they would be accused of being European 
or White.
    So I think there is a big conversation that needs to be had 
beyond economics or beyond numbers and charts. And we have to 
really get down to the nitty-gritty, excuse me, on what it is 
that we are doing, what it is that we are saying when we use 
the word liberty, prosperity, and we the people and democracy. 
Why is it that it appears when I travel abroad all over Africa 
I have to answer for 315, 318 million Americans now that they 
now I am a citizen of Sierra Leone, and then when I am here I 
have to answer for 1 billion people on the continent of Africa.
    So I am hoping that H.R. 4221 is passed by this Kenyan-
American who happens to be the most powerful man in the world, 
named President Barack Hussein Obama, so I can get a break. I 
thought that by becoming a dual citizen one would have the 
freedoms of being able to be revered. But actually I realize it 
is more problematic because I am asked more questions. And I am 
here to help support this bill, hopefully get it passed so we 
can really have some serious conversation about how we can 
actually galvanize, oh, close to $1.3 trillion or more that can 
help a very, very sagging economy here. So the $1 trillion 
question is: ``What are the American people, or should I say 
the American legislature and Executive orders waiting on?''
    Mr. Maynor. Yes, and I would just like to add that my 
experience in Africa dealing with women specifically, because I 
am in the hair care business, there are a lot of salon owners. 
They run their families. They send their children to school. 
They feed the community. And what we find is that when you 
impart knowledge and education and give them different skill 
sets they become buoyant. They become excited. And they 
treasure U.S. goods.
    This is not hype. This is not hyperbole. They want U.S. 
goods, they desire U.S. goods. But the hardest part is being 
able to either afford them or get them. And the experience that 
we are having with counterfeit goods coming out of China, I 
mean I have literally lost 80 percent of my business in Nigeria 
from counterfeits, because price points. But then if there is a 
product that looks like mine, doesn't smell like mine but could 
be mine, now I am the owner. I am the bad guy. I am the 
responsible person that has now brought this negative and bad 
product to the community.
    And so we are diligent in fighting this propaganda. We are 
diligent in trying to secure goods. But as you can appreciate, 
it is not always easy to prove the fact. Now we know it is 
going on but how do you prove it? How do you have recourse? And 
those are the things that we are trying to deal with in Africa. 
But we know the potential.
    And to your concern, Mr. Chairman, about women and the 
possibility of the Chinese mindset, I don't necessarily see 
that happening in Africa but it could, relative to pressure. It 
could, relative to economic strength from China saying hey, if 
you don't do this we won't do that. And the economics tend to 
shift the dynamic, shift the mindset, shift your ethics. And we 
as Americans are always strong on ethics, morals, standards, 
quality. If we continue to be a second class citizen with 
regards to courting Africa, I think it would be a travesty to 
be quite honest.
    Mr. Smith. Mr. Maynor, has the U.S. Trade Representative 
been of any help to you as China has stolen your products and 
sold them----
    Mr. Maynor. No, they have not. I honestly haven't had any 
experience with the trade representatives here to be quite 
honest, and that could be as much my fault as any. But in 
talking with Congresswoman Bass, we spoke about the fact of 
centralized information. There are a lot of things that I heard 
here today that I did not know existed relative to assistance 
for international trade. Now again I could be at fault. I am 
the director of the department. I should know those things.
    But where is the consensus view? Where is the database? 
Where is the mindset or the process by which to disseminate 
that information to myself and people like us? I am the 
diaspora. I am proud of being that and I know that the reaction 
that I have. And I work with a lot of Africans who have come 
here who are U.S. citizens, and they are a wealth of knowledge 
and input with regards to going back to Africa because they can 
sometimes help us circumvent the learning curve and the 
hindrances of dealing with the wrong individuals. And so the 
diaspora is very important.
    Mr. Smith. Our bill would establish a special Africa Export 
Strategy Coordinator, and if you look at who would be included 
in the coordinating mechanism established by the bill, it will 
ensure that everyone is on the same page rather than all these 
stovepipes, which is not unlike what we used to have with our 
intelligence community before 9/11. The left hand never knew 
what the right hand was doing. So this is what this seeks to 
rectify in part.
    Any other comments before we----
    Mr. Washington. I would like to piggyback on what Mr. 
Maynor is saying. It is my experience over the last 6 years on 
the ground is that many of the individuals will continue to 
accept donorship if it is continued to come. But the majority 
of them, and what I decided before I went into Sierra Leone is 
to study the history of the people, their reactions to various 
uprisings, upheavals, and decided to ask, myself is not to go 
in as a missionary mindset, is to go in and ask five questions.
    When I first hit the ground and put a delegation together 
with the support of NAACP, with Bruce Gordon, gave me 
Crystalline Kirk. I brought an architect to do an assessment of 
what we see, the human rights assessments. I brought a doctor 
to give me assessment in there, and asked five questions. And 
the first thing I would ask is, what are the top five things 
that you would change about this country or your living 
standards, if you could? The first thing was always corruption. 
The second thing was job creation. The third thing was the 
eradication of malaria, and the fourth thing was cleanliness, 
and the fifth thing was basically being able to just have their 
education.
    It is really, really interesting the education was last, 
but I found out that if you have poverty then you are going to 
have corruption, and it is not the other way around. And I 
think that is the stigma that has been running rampant, where 
even myself with all of the support.
    And I have to honor the Bockari Stevens' and Michael Owens 
and the ambassadors there that I have been working with, but 
they have been rendered pretty much ineffective because they 
are considered politicians. Whereas I show up, I show up as, 
they don't know me as Dr. Burke, in the bush. They know me as 
an African-American who kept his word. They know me as an 
African-American who asked five questions and delivered in a 
timely manner.
    In fact, when I was building the school in the village I 
found out that my architect, he lost some workers. After about 
3 months of building all my workers left even though they were 
being paid on time, they left. And they came back about 2 
months later. It took about 8 months to build the school. It 
was really supposed to be a year but we pushed by 8 months to 
deliver before the President was being elected so he could use 
that as what is good is happening in Sierra Leone.
    And when they returned they were in shock that the school 
was still being built and that there was a cash flow still 
happening. And when we asked why they left, they said that in 
their habitual clock nothing goes past 3 months. No job has 
ever gone past 3 months in about 50 years. And when you go to 
Sierra Leone you will look at all these concrete buildings and 
all this rebar. I look at them like unbelievable tombstones of 
either pretense ego or just infidelity, however.
    And there is a lot of ghost schools. People didn't put 
together NGOs, they just build schools and there are no 
students and no teachers. So I look at those things every time 
I go back to Sierra Leone and then I am left with those 
children looking at me going, okay, you have come back yet 
again, but very little is changing.
    I don't know. I don't know what more I can do or what more 
we can do. But I do know that if we continue to ignore Africa 
as the second largest continent in the world and now the rising 
of Boko Haram, we ignore Africa at our peril in this next 
coming 10, 15 years.
    Mr. Smith. Ranking Member Bass?
    Ms. Bass. Thank you, and I just have three short questions 
because I know we are going to come on the clock again and have 
another vote. But as I listen to you, Mr. Washington, it is 
amazing, because there is so much, I think, attention has been 
given to a lot of your work on the philanthropic side, the 
foundation and all, but yet you talk of the Hira International 
Investment Group. And as the two of us were commenting, we 
haven't heard that on CNBC.
    And I just wonder about that in terms of the publicity that 
you have gotten. What has been the response? Have you tried to 
talk about that? CNN, I haven't seen that there.
    Mr. Washington. I think I have learned my lessons. I don't 
know, should I just say no comment? I have my theories on that. 
I think the proof is in the pudding. I have been working at 
this for 6 years in a very positive manner. I have made history 
April 26, 2010, along with W.E.B. DuBois. I can say that it has 
been put on media blackout but I think that would be a horrible 
joke.
    Ms. Bass. You said you made history?
    Mr. Washington. April 26, 2010, becoming the first African-
American----
    Ms. Bass. Oh, right.
    Mr. Washington [continuing]. Human being to receive a dual 
citizenship solely based on DNA. Now my ego doesn't lay in the 
ground on whether or not I am getting, I do have to admit CNN 
did give me a ticker. I think my wife caught it and she was 
happy to hit the record button, and when I did get back in-
country I saw the little ticker on CNN. Isaiah Washington 
receives his citizenship in Sierra Leone.
    I think that is the fundamental problem. Although I love 
Fareed Zakaria and I love watching GPS, I just can't support it 
anymore because every time I pick up the television, and I love 
my favorite shows from Charlie Rose. If I read, all I am 
hearing about is the Middle East. And for the life of me I 
can't understand how Egypt fell into the Middle East.
    So when that is going on I just go inside. And I decided 
that the best thing for me to do is just keep working, keep 
pushing and keep moving forward, and eventually I will meet 
individuals like Greg Simpkins and Congressman Chris Smith and 
Congresswoman Karen Bass, and obviously the long-time support 
of Barbara Lee, Mel Watt and Congressman Rush. I don't have 
time to think about whether or not I am getting more screen 
time as Angelina Jolie or Brad Pitt or Matt Damon or George 
Clooney. I know the answer to that.
    But I think that in time we can change the face of that and 
know that this is not a missionary project. This is not a back 
to Africa movement. This is an economic opportunity that all of 
America is really, really embarrassingly missing out on.
    Ms. Bass. Well, I told Mr. Rush and Mr. Smith that I am 
just really excited about being a part of the legislation and 
want to do everything I can, and especially following in their 
leadership and guidance. And so the conversation that we were 
having before is what do we do next. What is the strategy to 
move this forward? And to me it seems that part of it really is 
promoting, and maybe it is talking about GPS and holding them a 
little bit accountable in talking about looking at the economy 
and the economic benefits of investment in Africa.
    And so to me I think about the Hira International 
Investment Group, and with that I think it is part of putting 
the information out there so people are aware of the potential 
in the investment, and I think it down the line will help us 
get the bill passed. So I will look forward to continuing to 
work with you on that.
    Mr. Washington. In the old way of saying that we--I think I 
said it to one of my colleagues out here from the Moroccan 
Embassy, which I will be traveling to hopefully very, very soon 
hopefully to sit with BCP Bank and King Mohammed VI. I have 
been invited once. I chose not to go for some other reasons, 
the little Western Sahara issue there.
    But I think it is high time to really start negotiating 
this idea. I have been hearing a lot, this thing called sub-
Saharan Africa. I really don't understand what that is. Now 
that I am a citizen of Africa, I don't know where that came 
from. I don't look at any country that is in the south that may 
be harboring those that may have more metal than the others. I 
look at North Africa. I look at South Africa. I look at Central 
Africa. I look at it as Africa or Ethiopia, the land of Kemet. 
And I think once we really start restoring the historic aspect 
of what that great continent has contributed to all of humanity 
that would be one heck of a start.
    Ms. Bass. I agree, and I think with our own population the 
first thing we have to do is get people to understand that 
Africa is not a country, and all the benefits are there.
    Mr. Maynor, when we were talking before about how we expand 
the work, the knowledge that you have from being involved in 
Africa for 30 years, and how we maybe even bring together 
businesses that are interested in investing in Africa and have 
presentations from you, from Mr. Washington, talking about your 
personal experiences, I think, would be very beneficial.
    You mentioned a little bit about Ex-Im, but I wanted to 
know how if you have utilized Ex-Im, has the U.S. Government 
been supportive in other ways whether it is the trade off as 
was mentioned or----
    Mr. Maynor. Yes, our CFO primarily deals with the Ex-Im 
Bank negotiations, and he has sent several inquiries for some 
of our distributors. My understanding from him is that some of 
them didn't pass the vetting process. They may have had some 
late payments or they may have been in essence too small to 
even bother with. So I don't know all of the rudimentary 
details relative to our Ex-Im Bank challenges, I just know that 
we have not been able to really consummate any assistance with 
regards to selling goods to Africa or helping with receivables.
    And so I think it is our charge to reengage Ex-Im Bank to 
understand what is going on and hopefully Ex-Im Bank will still 
exist. I mean again this is something that I am hearing for the 
first time and it sounds like a travesty. Even though I may not 
have the best experience, but that is only current. That is not 
future. You see, I always believe in things can change, I 
believe in so long as we put our best forward we make it known 
that what our requirements, our needs are and how they could 
assist us, I think dialogue helps to bring about a better 
understanding and cohesion with regards to getting loans and 
assistance.
    And again, for us it is about receivables. How do we manage 
those? How do we extend credit being the size that we are and 
in taking those challenges? So again, I would defer to my CFO 
for all of the exact details. I just know that I have not been 
able to sell more as a byproduct.
    Ms. Bass. Well, I also wonder if there is ways that we can 
be helpful to you----
    Mr. Maynor. Oh, absolutely.
    Ms. Bass [continuing]. In terms of facilitating those 
relationships. Because as we are moving in this direction with 
the legislation to the extent that we can start practicing it 
now, I think will only help us in terms of----
    Mr. Maynor. It will absolutely help us. And again our 
conversation earlier about pulling together groups of people 
who have a like mind, have a like interest, have like needs 
relative to Africa and African business. We don't have to be 
the same enterprise. We can be different kinds of companies. 
But experience is experience, and you begin to share that.
    I have had very good experiences with again some people who 
are from the African continent. They live here. They are part 
of the diaspora. They were immeasurably helpful to us about who 
we should talk to, why we should talk to them, where we should 
go, what we shouldn't do when we get on the ground. Those 
things can also be incorporated in some U.S. documents, some 
U.S. assistance.
    And I have had very good interface with various ambassadors 
and commercial attaches in different markets, so I don't want 
to paint a picture that we have had no assistance. I think that 
your ambassadors and your commercial attaches do a brilliant 
job under the challenges that they currently have. And again 
all of them need to be empowered. They need to be giving more 
assistance, and I look forward to this bill being enacted and 
helping some of these things to happen in a very positive, in a 
very short-term manner.
    Ms. Bass. Well, and I will agree with our chairman here 
that we definitely need to speed it up, otherwise just by the 
length of time it won't happen.
    And finally, Mr. Eisner, one question was turned to you 
from the other panel, which I asked specifically what countries 
have the Chambers? Obviously, South Africa, but what countries 
other than South Africa?
    Mr. Eisner. Sure. So we have two tiers of AmChams at this 
point, American Chambers of Commerce abroad that the U.S. 
Chamber works with to establish throughout the world. I think 
at this point we have 119 in 115 countries. As it relates to 
Africa, we have South Africa, Tanzania, Ghana, Nigeria, 
Cameroon, Zambia, Sierra Leone, which was the most recent one 
that we accredited, and Kenya, with prospects out there of 
Mozambique, Ethiopia, the Gambia, Senegal, Madagascar, Cote 
d'Ivoire, Mauritius, Uganda and Zimbabwe. I think I have that 
just about right.
    AmChams are organizations that are driven by American 
businesses doing business on the ground there. So in some 
countries you do have a presence of, I think Nigeria has a 
Nigerian-American Chamber of Commerce, but it is really a 
Nigerian businessmen's group that is trying to do business with 
the U.S., which is all good and well but it is not exactly the 
directives of what AmChams are which are to make beach heads 
for American firms and give them some of what the Embassies do, 
which is the commercial understanding of the markets. And that 
is what AmChams primarily provide to American companies.
    Ms. Bass. Well, I also wanted to ask you what role the 
Chamber is playing in terms of Ex-Im and the fact that we are, 
the clock is ticking. The Chamber is one of the most powerful 
organizations here on the Hill, and especially in terms of the 
majority. And we are working in a very bipartisan fashion here, 
but the majority responds very strongly to--and I have 
certainly been lobbied about Ex-Im but it has been my 
individual companies and I wasn't in. I am very excited that 
the Chamber is supporting this bill, because in the same way 
that I believe your presence and support can help make sure 
that this bill happens, because of the power of your 
organization, what are your lobbying efforts in regard to Ex-
Im?
    Mr. Eisner. So we have been extremely busy. I don't have 
all the nitty-gritty details as my coworkers on the other side 
of the aisle that focus on domestic issues have been more 
focusing on that, but I know we have probably had somewhere in 
the neighborhood of 30 to 50 meetings with members of all parts 
of the U.S. Government whether it be administrative or in the 
House or in the Senate.
    So we are steadfastly in support. We wanted this to get 
done last year. We wanted it to get done last month, and now we 
are still at the standpoint of why isn't it done. And I think 
we still have got some educating to do of some of your friends 
and colleagues to make them understand the value.
    Ms. Bass. This is exactly what I was referring to.
    Mr. Eisner. Yes. Yes, I know. It is the work of you all too 
to convince your colleagues that this isn't something that is 
hurting American workers. It is actually helping American 
workers to drive those exports abroad, because unless you only 
want 7 percent of consumers out there which are in the 
Americas----
    Ms. Bass. Well, I mean I think that there is a lot of 
misconceptions about international work, period.
    Mr. Eisner. Yes.
    Ms. Bass. And viewing it as in a time of an economic 
problems that we are having and a large deficit, we need to cut 
wherever, and the education around how this benefits our 
economy, I think, is really important, and your organization 
can certainly take the lead in that.
    Mr. Eisner. Well, I appreciate that. We have been very 
active out there and we hope to have some sort of concluding 
legislation here in the couple weeks. If we don't, then I think 
we are all up the river without a paddle.
    Ms. Bass. Have there been meetings with the majority 
leadership?
    Mr. Eisner. I believe there have, but I don't have the 
exact details on that. I can provide them to you afterwards.
    Ms. Bass. All right, thank you.
    Mr. Smith. Mr. Rush?
    Mr. Rush. Thank you, Mr. Chairman. This has really been a 
very insightful hearing and I am just pleased to hear some of 
the commentary from both of this outstanding panel.
    I must say, Mr. Washington, to you, you inspired me in some 
ways to have my DNA traced. And I am from the Ashanti in Ghana, 
and also from the Bukit, from the Cameroonian and Equatorial 
Guinea on my father's side. My mother's side is from the 
Ashanti in Ghana.
    So I intend to hopefully travel the same path that you led 
and even to the point of dual citizenship if at all possible. I 
think that again and I am headed down that particular road.
    My interest in the trade aspect of Africa has a self-
interest perspective. The district that I represent has an 
unemployment rate for young people that holds around 60-65 
percent. And as a result then you have all kinds of issues that 
are a result of unemployment, dropouts and that type thing, and 
mostly in a large portion of my district.
    And so I view the expansion of the American marketplace to 
Africa as being not only an opportunity to help grow a middle 
class in Africa, but also to help expand and then strengthen a 
declining middle class here in the U.S. And so I think that it 
is the key, it is the answer to both of those two problems on 
both continents.
    And I was in Sao Paolo, Brazil, a week ago at a conference 
there on energy. And Brazil is one country that is, they don't 
rely on foreign oil at all. There is no foreign import of oil, 
petroleum of any note. It is free from foreign oil. And the 
reason why is that they use ethanol that is derived from sugar 
cane. And in your comments you were talking about how arable 
the land is in so many African countries, all right, where you 
can grow. So the point is that was driven home to me was that 
energy and agriculture, there is a nexus between energy and 
agriculture where, and if we are going to meet the demands of 
the next 25 years in terms of these emerging countries and the 
expansion of the middle class and the things that the middle 
class want, need and will purchase, then we have got to also 
deal with the energy components of that and the energy demands 
of that.
    So you can elaborate and you can put it in perspective.
    Mr. Washington. You are exactly right. I am trying to 
contain myself here. I have been overwhelmed a couple of times 
here in some thinking, think-tanking here. I have about a clear 
vision on just elephant grass alone which is growing pretty 
much 90 percent all over West Africa. That's the new oil, as 
well as water being the new oil. I have a vision for that. 
That's a cost of $3 million to get that started immediately 
where a biomass, biofuel opportunities right there in Sierra 
Leone to start development as soon as possible. Holland has bid 
on it. There is interest from Denmark.
    But again, I repeat that my President has put out a mandate 
that he is trying to hold out to keep from being neo-colonized 
by the Europeans and/or, I am not so sure the Chinese are going 
to colonize Africa, but they certainly, I don't think they 
really care enough about colonizing anything. I think we can 
take a lesson from Chinese as opposed to really beating them 
down about the human rights issues, but take a lesson that they 
are focused. They are very focused on what they want and what 
they need.
    Now can we fault them for going and getting what they need 
and not talking about it? No. They go and get what they need 
for their people. And I go back to our strategy, our marketing 
tool, our branding tool. Are we doing the same or are we just 
sitting back posturing and boasting about all kinds of things 
and acts and bills that are falling at the wayside and being 
left behind. As you say we are standing flat-footed. What I 
have said repeatedly on Capitol Hill in the last 6 years, I 
have over 6,000 acres of land to grow whatever you need.
    I know I have just returned from Sao Paolo, Rio de Janeiro, 
also Recife and the state of Ceara in Fortaleza. And I know my 
phone is blowing up for me to get back to Brazil so I can walk 
them into Sierra Leone. Now am I going to keep them at bay 
forever? I have gotten calls from Russia, India, and China. 
This Dr. Burke thing speaks in all languages, 65 different 
languages around the world. So it is almost like an American 
Express card for me because the power of this television.
    But I am American. There is American at the end of African, 
if I choose to call myself African-American. And it is very 
difficult. I too feel like I am under pressure, in the position 
as my President in Sierra Leone is, how long can I hold out on 
cash that is being put on the table by these other entities 
that are saying, whatever you need, whether they are going to 
build that road right or not, whether or not going to take care 
of the children that are being born out of wedlock. There are a 
lot of Asian and Sierra Leonean African children are running 
around that need parents and they don't have them.
    So we have other social issues that are developing on the 
ground as long as we continue to ignore, or for some reason we 
are thinking that this is the European's backyard like we have 
the sense that Latin America is our backyard. I don't really 
understand how that sentiment is still being felt, but I can 
see it by action or lack of. So agriculture, agriculture, 
agriculture is the name of the game. I think right away we can 
employ millions of people here in America alone with their 
expertise and innovation as soon as this bill, hopefully 180 
days after this bill is signed. I can't wait. I am waiting with 
bated breath and I hope for the best. But again we are just 
talking about great ideas that I have gone over for years in 
being in Sierra Leone that I know we could implement tomorrow.
    Mr. Rush. I yield back, Mr. Chairman.
    Mr. Smith. Okay, we are joined by Congresswoman Jackson Lee 
from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies, and to Ranking Member Bass and to the author of 
this vital, the authors of this very vital legislation. I want 
to just take a moment to applaud you.
    I went in the inaugural trip on AGOA legislation, African 
Growth and Opportunity, which talks about legislation, bringing 
goods out. I traveled to seven nations. One of our persons 
obviously quoted the former Ranking Member Donald Payne and 
Charlie Rangel. And we had all hopes, I think Mr. McDermott on 
the Ways and Means was part of this, and we see the 
positiveness of it.
    But as I listen to both of you dealing with this 
legislation, one of the things that you are highlighting is the 
dumping that comes where African exports are even having 
difficulty under AGOA. H.R. 4221 talks about an overdue 
partnership and respect and recognition. That Africa is an 
adult, is worthy of the respect from the United States as an 
equal partner in trade, in defense, in issues of health care 
and respect of culture. So I certainly wholeheartedly support 
H.R. 4221.
    And I heard Ranking Member Bass ask the question about 
leadership, and I really think she was asking it, and I don't 
want to interpret her words, but for a good bill such as this 
with a simple premise, why this cannot move through committee 
and move to the floor of the House. Because everybody is 
talking about jobs, and when you talk about exports you are 
talking about jobs.
    So let me try to get to questions and thank all the 
witness. Let me acknowledge my very, very dear friend, Mr. 
Washington, a constituent, a Houstonian. I don't know if he 
knows how many love him in our city and community, very proud 
of him, and these are not unnecessary words. For us he is our 
Oscar-winning, talented provocateur of the arts, of acting.
    Mr. Washington. Not Oscar yet.
    Ms. Jackson Lee. Excuse me, my claim. You can't in any way 
disagree with a Member of Congress. He is our Oscar-winning, I 
have promoted you, I understand. Take the hint. For us it is an 
Oscar because of his talent and because of his generosity. And 
so we have inducted him ourselves because of the broad view 
that he has on the world.
    I want to thank Mr. Eisner for your presence, and Mr. 
Maynor, and everybody knows Luster Products. And we certainly 
want to make those products available.
    But let me just pose to you, Mr. Eisner, and I am going to 
go across, and again I will try to be swift. I was with the 
President in South and Central America for the Organization of 
American States, and beside what ever other news came out of 
Colombia, South America on other unnecessary activities, the 
interest was to focus on the partnership and economic link to 
South and Central America. And though this is a sidebar 
comment, there are two states that have Afro-Colombians.
    And what I saw in South and Central America, been there a 
number of times and have been to a number of regions that have 
African-Brazilians, African et cetera, but there was still that 
strong link between the Afro-Colombians and Africa. Not that 
they just came back or they have some, but just the lineage 
connection. And I think in this country we have to do a better 
job. There is no insult--Chinese-Americans are strongly 
supporting China, will defend to the end. Korean-Americans, 
there is a trade bill with Korea. Certainly my friends of the 
Hispanic and Latino community recognize the importance of South 
and Central America. And Canadians or Canadian-Americans or 
whoever recognize the importance of North America, Canada.
    What we have to do is recognize that importance. And I just 
want to ask this pointed question to Mr. Eisner, because I 
didn't hear, Mr. Chairman, did you secure an endorsement of 
4221? I just did not hear. And the reason why, I was with Mr. 
Donohue right across the table in this meeting. We were glad 
that he here--excuse me, I am sorry. We were glad that he was 
in Colombia, and I was in Colombia right across from him.
    This is a bipartisan bill, so this is not a criticism but 
it is a note to you. The Chamber has not done good work on 
Africa. And so my question is, are you suggesting that you will 
look closely at H.R. 4221 and really work on what I started out 
by saying that Africa is an adult and should be treated as such 
and we should be increasingly looking to send mature 
delegations over joined with Members of Congress. Again it is 
not a criticism, so let me just stop. Is this a bill that you 
have looked at, sir, and can work with the Chamber?
    Mr. Eisner. Yes, we said at the outset we are supportive of 
this legislation.
    Ms. Jackson Lee. Okay, thank you.
    Mr. Eisner. At any point of having a bipartisan support 
especially across the way with the Senate that focuses 
attention on Africa, I would think we would be remiss if we 
didn't support it. There are elements, I think, as we analyze 
it further and further we will probably want to work with you 
on and massage a little bit like any piece of legislation, 
figure out where the right and the wrong are, but to put some 
centralized focus in this government on Africa is long overdue.
    I take a little umbrage to say that the Chamber hasn't done 
good work in Africa, because I think we have done a lot of work 
trying to help our members understand the prospects that exist 
in Africa across the continent. It is not just one place, it is 
many countries. And we have spent a lot of time in the last 
couple years, I will admit that prior to kind of myself and my 
colleague, Danielle Walker's arrival on the scene from Africa 
at the Chamber, we overlooked it. But that is a time that has 
gone behind us we are looking to the future, and we think that 
there is an opportunity here for our membership to really 
engage Africa in a much more substantial fashion.
    Ms. Jackson Lee. Well, I am delighted that Ms. Walker is 
here. We obviously know her reputation. But I see a lot of 
friends in the room here. But let me just make the point, I 
would hope that you would reach out and talk. You have got the 
chairman of the committee that is a powerful support of Africa, 
a number of members here. That you would reach out to members 
who are stakeholders in that area.
    And I would offer to say without insulting the chairman and 
the subcommittee and the ranking member, members of the various 
caucuses, I would just say the Congressional Black Caucus, and 
I am not sure if that kind of give and take has occurred. This 
bill will be a great groundwork for that. Mr. Rush has traveled 
all over America talking about Africa, and I have been there 
over a number of years having started going to Africa in my 
early college years and have not stopped on that. So I would 
encourage that. So thank you for that and I hope you will 
expand your reach to members on that issue.
    Can I just say to Mr. Maynor, you have made a very valid 
point. One thing I want to make sure, you may have discussed 
it. I think I heard you talking about the Export-Import Bank 
should be helping you? We are strong supporters. Maybe you are 
going to say that it is, and we want to congratulate you if it 
is.
    Mr. Maynor. Well, my comments earlier were that we have had 
some challenges. Primarily my CFO does the day to day or the 
intricate interface with Ex-Im Bank. And what I was saying is 
that as a leader or as the director of the department I have 
not seen any sales as a byproduct of having Ex-Im Bank support. 
But there are challenges and in challenges with our customers. 
From what my CFO has said that they have done the scrutiny, but 
some of the accounts that we wanted to do business with did not 
hold up to that scrutiny.
    But my point to that is what are the rules of engagement? 
What are the fine lines? What can be done in a risk-reward kind 
of mindset? Because if we don't take a chance there will be no 
results.
    Ms. Jackson Lee. Absolutely. There are 800 million-plus and 
growing. There may be 1 billion soon, and there are 53 nation-
states. And let me just make the point that we need to do a 
better job of making sure that our institutions like World Bank 
that does another business, but Ex-Im understands that they 
work for you, and with the Chamber's good work in terms of 
exploring where the good opportunities are. When I have talked 
to business persons they have said, we want to know how to get 
our money out of Africa----
    Mr. Maynor. Exactly.
    Ms. Jackson Lee [continuing]. Once we do business. One of 
my great pastors, Pastor Lockett of the CME church, went into 
agricultural business in Ghana and I think they were doing 
quite well in terms of they bought a lot of land, et cetera, 
whether he has passed and whether it is continuing. We need to 
build institutions, institutional relationships.
    And I think something that Brother Washington said, I am 
going to ask him, to show that we have staying power is vital. 
So can I just end by saying that I think our message should be 
that this vehicle of H.R. 4221 should be establishing that 
partnership of exports, but we need to be, and we have enough 
tools from the U.S. Department of Commerce from trade missions 
that they used to take, to match up, and the Chamber, the right 
business partner for you to survive.
    Let me move to Mr. Washington as I conclude. I have already 
said how proud we are. But you made a point about staying 
power, and that was an enormously emotional point. I have been 
to Sierra Leone but we know that there are other challenges. 
Even with a growing middle class there are challenges on the 
continent.
    And I don't want to sound patronizing, but some of it is 
their charm. Some of the cultural connectedness, historical 
culture is part of the continent's charm. I don't know if they 
will lose all of that. I don't think they need to lose it to 
have a prosperous, thriving export-import and producing 
products. I don't think they need to do it. But what you were 
saying is, and I think that is the point that we, that this 
bill, but overall need to convey. And if you would share that 
with me. They need to know that Americans are there to stay for 
a good purpose.
    And I have no criticism that I want to publicly say, but we 
know that China is there in a large way. I happen to be a 
chauvinist on America. I think we have a better product, better 
construction, better rules, better laws that we can be a more 
constructive partner with Africa, but they always ask the 
question of staying power. I come from Texas so you know there 
is oil and gas. I don't want to throw oil and gas under the 
bus. I want to see minority companies from the United States, 
KMAC, for example, down in Houston, Texas, having the 
opportunity to be like my multinational friends that have been 
there for 50 years. I need a two-way street that our heads of 
government in Africa will be open but we need to prove staying 
power.
    Mr. Washington, if you would just comment on that part.
    Mr. Washington. Again, this is probably the best time I 
have ever had on the Capitol Hill in my entire African-American 
life. I would love to meet this gentleman named case law in our 
good home state of Texas. I have been getting all kinds of 
roadblocks. I know he wants to get into Sierra Leone. I will be 
happy to bring him.
    The one thing that I have been able to utilize, I became an 
actor because I wanted to eradicate stereotypes for African-
American men. I had no interest of becoming the next Denzel 
Washington whatsoever. I became an actor so I could sit here 
one day and look before you guys and there it is. I am excited 
about your excitement. I am excited about the idea, but I also 
know that without a belittling of the highest office in the 
land, without trying to downsize the leader of the free world, 
it cannot go unnoticed that you have millions and millions of 
people of color, particularly those of the African diaspora, 
the African descent that what it would mean if this President, 
who happens to be African-American, would sign a bill like H.R. 
4221. I know for a fact there will be jubilee in every corridor 
and every dirt road and every shanty all over that continent 
and beyond and even in Brazil where I just left. I can't wait 
to get to Salvador Bahia.
    So what my purpose in life is, is to--I have had a very 
privileged life. Growing up in Houston and never, ever being in 
a position where my skin color or my, anything to put it in a 
position, believe it or not, growing up in Missouri City, 
Texas, being the first graduating class of Willowridge High 
School. It was always diverse before we even had the word 
diversity. So I didn't hit ignorance until I joined the 
military. I didn't get ignorance until I started meeting other 
people from smaller towns and smaller states. So I have always 
thought big as most Texans do.
    But Sierra Leone is not as big as the state of Texas, and 
the reason why I stay true to it is because I know we can 
change this country around. It is only 71,000 kilometers from 
east to west. You can travel it in 6 hours. And the history 
that I have discovered in my lineage is that there is not one 
African-American walking on North American soil that did not 
get processed through Bunce Island, which is off the coast of 
Sierra Leone. It is not coming from Goree Island or Elmina 
Castle, most of the slave labor that left those slave castles 
went to the Caribbean and went to South America. So all I am 
simply trying to say is that we have some of the richest 
Africans in the world right here in North America, right here 
in the United States, and I just want to try to wake them up. 
And hopefully if we can get our President to help wake them up 
by signing this bill as soon as possible, I think we can get a 
lot of other congressional careers extended by providing a lot 
of jobs as soon as possible.
    Ms. Jackson Lee. I don't want to overstep the chairman. He 
and Mr. Rush may be rushing toward the floor, but I am just 
going to put on the record that this would be a non-painful 
bill to put on the floor. I don't know how I could capture it 
as a trade bill, but I would say it is a jobs-creating bill, 
Mr. Chairman.
    And so I would hope that we could, I guess we have not 
marked it up, I don't want to misspeak again, but that this 
bill could be marked up by Foreign Affairs. I don't know if 
overriding jurisdiction is also in Ways and Means. So we have 
the complexity of the congressional process of committee work, 
and also on the Senate side. I don't want to speak for the 
Commander in Chief, but I can feel very comfortable that that 
office would be excited and would be very willing to support 
any bill that we passed out on this very topic.
    But if you would just close by just going to the importance 
of America staying, like if we make a commitment we have to 
show that we are willing to stay in Africa and that we are 
willing to commit to Africa.
    Mr. Washington. That is the strategy that I have been 
using. And I say this to Congress and said earlier is that long 
ago we were at the forefront of not just doing humanitarism but 
going into countries and having that staying power. And not 
just going in bringing tanks and wars and guns to secure 
whatever it is we thought we needed. I think we can have more 
than enough not only for ourselves but the world at large by 
engaging Africa and becoming a staying power.
    Now that doesn't mean building a military base in various 
countries in Africa. I have already had that conversation with 
people interested in Africa. I don't know if that is the right 
strategy. But to have individual business persons providing 
jobs on both continents where everyone can create their own 
dreams.
    On the world that I have been benefiting from in Hollywood 
is that everyone watches YouTube, and they are going to be 
watching me right now and they are going to be waiting, and I 
just hope that the wait coming from the American people and our 
Government in the United States of America, which--even Liberia 
shares the same constitution as we do, guys. Sierra Leone had 
the first Freetown, before Liberia. So there would be no HBCUs 
if it were not for that man, Joseph Cinque, who tried to turn 
the Amistad around, who happens to be my ancestor.
    So I am going to continue fighting under the radar if need 
be, but hopefully after this we can get out of the dark and 
stop calling the continent the Dark Continent, and shed the 
right proper light on it and get some things done that will 
benefit those who built this nation that happened to have been 
put in the position where we were sold to this nation.
    Ms. Jackson Lee. Mr. Chairman, thank you for your kindness. 
Thank you, Mr. Washington, and for all the witnesses. And I 
just commit to work with this subcommittee and the leadership 
of Chairman Smith, on the author of this bill, coauthor of this 
bill, Mr. Rush, the ranking member Ms. Bass.
    I think this is an excellent idea. I think this is the 
absolute perfect connection or next step to AGOA. And I think 
that in spite of an election year, I don't see why this bill 
couldn't be passed and signed by the President of the United 
States in this election year. How noncontroversial, how job-
creating is this or not?
    I yield back to the gentleman. Count me as one of the 
advocates for this legislation.
    Mr. Smith. And we thank the gentlelady for her very kind 
comments.
    Mr. Rush. Mr. Chairman, I would be remiss, I ask for just 
one additional----
    Mr. Smith. Mr. Rush.
    Mr. Rush. I just ask for one additional moment. I would be 
remiss if I didn't ask Mr. Washington this question. Because he 
kept referring to Hollywood, and I know he is an actor and 
renowned actor, and he has had a lot of--from the city that 
produces greater people in general, from Houston Texas. I 
wanted to just ask him this question.
    I have been in contact recently with a fellow by the name 
of Mr. Jeta Amata. And he brought to my attention that the 
fastest growing industry in the entertainment industry is in 
Africa. And that the Nigerian film industry makes more films 
than the American and is surpassed only by, they call it 
Nollywood, is only surpassed by Bollywood.
    And Nollywood has grown at about 18 percent a year and was 
worth almost $300 million in 2010. And according to research by 
the management and consulting company of McKinsey & Company, it 
produced about 2,000 new films in 2010, and that number is 
growing at 15 percent a year. So not only does Africa have a 
lot of potential in terms of agriculture and energy, but also 
in terms of the entertainment industry.
    And can you want to say anything about that meeting?
    Mr. Washington. You are very clever, sir, but thank you 
very much, Congressman Bobby Rush. Yes, as soon as I get on 
that last train smoking I am going to New York to make a little 
bit more of history working with Black Ivory Films Limited and 
Tony Abulu, who has been an extraordinary producer for Nigeria 
for the last 30 years. I will go down in history as probably 
the first African-American lead joining forces with Vivica Fox 
and Haitian extraordinaire, Jimmy Jean-Louis.
    Start filming April 23rd, completely supported by Ex-Im 
Bank and all the various governors of Ogun State, Abeokuta and 
others. I am hearing from my text that we are doing a press 
conference on the 20th of April to talk about just this, is how 
5,000 films a year come out of Nollywood and they are not 
getting any attention. So I think President Goodluck Jonathan 
is very excited that I have allowed my brand to help co-brand 
their beautiful sky mountains to show what is good that is 
going on in Nigeria as opposed to the countless loop of what is 
going on in Jos.
    Like the gentleman said before, the Ambassador, there is 
other beautiful things happening thousands and thousands of 
miles away. It is just like Congressman Bass know or 
Congressman Lee knows that what is going in Studewood is not 
what is going on in Dallas, or what is going on is not what is 
going on in Tyler. What is going on in Compton is not what is 
going on in Beverly Hills. They are totally separate.
    But if you are only seeing that one thing, Kony 2012 or the 
red one, the negative, the conflict, then obviously television 
is one of the most powerful mediums in the world. And that is 
why I am using my brand to have 25 countries watching a film 
from the press conference to the red carpet. So everyone in all 
of Africa can see the beauty of what is going on in Nigeria and 
how we are making this historical film, Dr. Bello.
    Mr. Rush. Yield back, Mr. Chairman.
    Mr. Smith. Anybody else?
    Ms. Bass. Let me just say in closing, this has been a very 
inspiring hearing, it really has, and I am very excited about 
this. But the hearing is step one, and afterwards it is about a 
strategy. It is about making this happening. And we were 
certainly talking amongst ourselves about what those next steps 
could and should be. And so I just hope that the three of you 
won't object to us calling on you again, because we would 
definitely like to include you as partners as we move this 
along until the bill signing.
    Mr. Washington. Thank you.
    Mr. Smith. I too want to thank our very distinguished 
witnesses for your patience. This is kind of late and you have 
been very, very generous with your time, but more importantly 
with your talent, and by giving us insights and additional 
arguments to make as we move this legislation forward and gain 
a greater understanding of the promise that is Africa.
    The Nigerian films issue is one that gets scant focus. I 
didn't know, Mr. Washington, you will actually be starring in 
one. Maybe you could tell us what the plot is. I will ask you 
privately.
    But thank you so much. It really is very, very helpful and 
you have been extraordinary. With that the hearing is 
adjourned.
    [Whereupon, at 5:42 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx> 
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
